<html>
<title> - THE MIDDLE EAST ROAD MAP: OVERCOMING OBSTACLES TO PEACE</title>
<body><pre>[Senate Hearing 108-316]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-316

         THE MIDDLE EAST ROAD MAP: OVERCOMING OBSTACLES TO PEACE

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON NEAR EASTERN
                        AND SOUTH ASIAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 15, 2003

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate




91-730              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman

CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
MICHAEL B. ENZI, Wyoming             RUSSELL D. FEINGOLD, Wisconsin
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
LAMAR ALEXANDER, Tennessee           BILL NELSON, Florida
NORM COLEMAN, Minnesota              JOHN D. ROCKEFELLER IV, West 
JOHN E. SUNUNU, New Hampshire            Virginia
                                     JON S. CORZINE, New Jersey

                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                 ------                                

                      SUBCOMMITTEE ON NEAR EASTERN
                        AND SOUTH ASIAN AFFAIRS

                 LINCOLN CHAFEE, Rhode Island, Chairman

CHUCK HAGEL, Nebraska                BARBARA BOXER, California
SAM BROWNBACK, Kansas                JON S. CORZINE, New Jersey
GEORGE V. VOINOVICH, Ohio            JOHN D. ROCKEFELLER IV, West 
NORM COLEMAN, Minnesota                  Virginia
                                     PAUL S. SARBANES, Maryland

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page

Etkes, Mr. Dror, director of Peace Now's Settlements Watch 
  Project, Jerusalem, Israel.....................................    22
    Prepared statement...........................................    26
Ganor, Mr. Boaz, Ph.D., executive director, International Policy 
  Institute on Counter-Terrorism, Herzlia, Jerusalem.............    32
    Prepared statement...........................................    35
Melchior, Rabbi Michael, Member of the Israeli Knesset and former 
  Deputy Foreign Minister, Jerusalem, Israel.....................    15
    Prepared statement...........................................    18
Ross, Hon. Dennis, director and Ziegler Distinguished Fellow, The 
  Washington Institute for Near East Policy, Washington, DC......     3
    Submitted testimony of Ambassador Ross is an article that 
      appeared in the Fall edition of The National Interest......     8

                                 (iii)



 
        THE MIDDLE EAST ROAD MAP: OVERCOMING OBSTACLES TO PEACE

                              ----------                              


                      WEDNESDAY, OCTOBER 15, 2003

                           U.S. Senate,    
               Subcommittee on Near Eastern
                           and South Asian Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:57 p.m. in 
room SD-419, Dirksen Senate Office Building, Hon. Lincoln 
Chafee (chairman of the subcommittee), presiding.
    Present: Senators Chafee, Lugar, Coleman, Boxer, and 
Corzine.
    Senator Chafee. The hearing of the Near Eastern and South 
Asian Affairs Subcommittee of the Foreign Relations Committee 
will come to order. I thought what we might do is begin with 
opening statements of Senators and then receive testimony from 
the panel under a 10-minute time limit, and finally take some 
questions. We have lots of questions.
    To begin with, of course, welcome to our witnesses. Some of 
you traveled a long distance and we appreciate that very much. 
If we have to break for votes, I apologize. We will try and 
keep that disruption to a minimum.
    My perspective is influenced by having just returned from a 
trip to Iraq and Afghanistan. Our delegation also stopped in 
Turkey and Jordan. In these and other meetings I have had in my 
position as a member of the Foreign Relations Committee, we 
have been asked over and over again, ``where is the U.S. 
initiative on the Road Map,'' which is so crucial to making 
progress on this most intractable of dilemmas.
    That is a question I have difficulty answering: What are we 
doing as Americans? I think hearing from this panel is very 
important, at a hearing titled ``Obstacles to Peace.'' There 
always are going to be obstacles--we knew that when we went to 
Aqaba--and we want to be able to surmount those obstacles. With 
the events of this morning, we are seeing a different trend: 
Americans are now being attacked for the first time. This is a 
trend that I think we have to address.
    The most recent effort at studying the region is a report 
entitled ``Changing Minds and Winning the Peace, the New 
Strategic Direction for U.S. Public Diplomacy in the Arab and 
Muslim World.'' This study showed that people in the Arab and 
Muslim world generally like Americans, but they have some grave 
differences with our policies. I think that is what we are all 
here to discuss this afternoon.
    Now we will turn to the ranking member Senator Boxer.
    Senator Boxer. Thank you so much, Mr. Chairman, for holding 
this important hearing on the Middle East Road Map. I think we 
both were a little disappointed that the administration is not 
testifying today at this session, but I think it is important 
to note they did testify before us in a closed session, and I 
found that extremely helpful. Ambassador Burns said he would be 
willing to work with us to address us in an open session, and I 
look forward to that in the near future.
    Little did we know that this would be the day that we woke 
up to the news that there was a tragic attack on Americans 
today, as our chairman said, the first such attack aimed 
directly at Americans, Americans who were going to interview 
Palestinian students who applied for Fulbright scholarships. I 
mean, that is a sick, a sick day for all of us.
    We need optimism. Mr. Chairman, you are an optimist and I 
am an optimist, and we make a good pair I think across party 
aisles here. But it is hard to come by. We were told by Mr. 
Wolfowitz, in answer to a question you asked him, that the 
Iraqi war was going to help solve the Israeli-Palestinian 
conflict. I was skeptical of that. I see these as very 
different situations. We certainly do not see it happening.
    We were told that Abu Mazen would change things and, sad to 
say, he is gone from the picture, I think because he really 
wanted to change things.
    We need a real heroic effort and we all have to work 
together across party lines to have that heroic effort for 
peace. Former President Bill Clinton, I think everyone would 
say regardless of the outcome of his efforts, put forth an 
incredible amount of energy, and I think the Honorable Dennis 
Ross was an integral part of that. While he was not successful 
in negotiating a final agreement for peace, his efforts in and 
of themselves gave hope to good people on both sides.
    I remember the sense of despair that I felt when Yasser 
Arafat went away after being offered essentially 90 percent of 
what he wanted. I thought that was a signal of a real bad turn 
of events.
    To the last days of the last administration, President 
Clinton tried to bring lasting peace to the Middle East. We all 
know when President Bush took office he was concentrating on 
other things, and he had a hands-off approach to the intifada, 
and I believe he disengaged with the Middle East and then came 
back and engaged, but important time was lost.
    I was glad when the President spelled out in a speech in 
July a Road Map to peace. He called for a Palestinian 
leadership that is not only free from terrorism, but willing to 
dismantle the terrorist organizations that oppose peace. I 
think that was a very clear and important message. That speech 
did lead to the unveiling of the Middle East Road Map to peace.
    Again, unfortunately for the first time Americans were a 
target on that road and I for one have not taken it all in yet 
as to what it means, and I am hopeful that some of you can step 
back a little bit. Maybe there is a way we can move forward 
from it.
    So I look forward to hearing from the panel of witnesses 
today. Clearly, I have very strong opinions about Yasser 
Arafat's lack of real engagement in dismantling the terrorist 
organizations. I hope I could be proven wrong. We want to know 
who did this to our people today. We want those people brought 
to justice, and clearly we need a vision to get back on some 
kind of a road.
    I thank you very much.
    Senator Chafee. Thank you, Senator Boxer.
    Chairman Lugar.
    The Chairman. No.
    Senator Chafee. Senator Coleman.
    Senator Coleman. Just very briefly, Mr. Chairman, because I 
do want to hear from the witnesses. We need a path to peace. 
The President laid out a Road Map. I have been strongly 
supportive of his vision for peace, but it has proven very 
difficult. And optimism--we need optimism, but it is really 
hard, really difficult. As the Senator from California notes 
today, it makes it even more difficult, more personal, with 
Americans being targeted, being attacked.
    Yet we have to figure this out. Jews and Palestinians have 
to figure out how to live side by side, protecting the security 
of Israeli, having a Palestinian state, but one in which there 
is an end to terrorism, in which there is transparency and 
democracy. I just hope that we stay the course, but in the end 
I would like to get a better sense that we can get there.
    Thank you, Mr. Chairman.
    Senator Chafee. Thank you, Senator.
    Senator Corzine.
    Senator Corzine. Thank you. I will just welcome the 
witnesses, and I appreciate very much your holding this 
hearing, Mr. Chairman. This accelerating element of violence 
that we have seen capped only today by this attack on Americans 
I think alarms everyone, is something that I think challenges a 
lot of the assumptions of the actions that have taken place, at 
least with regard to our major venture into Iraq, in my view.
    I have a single question: How do we find that path to hope? 
How do we move away from this accelerating sense of chaos and 
anarchy? I welcome hearing the thoughts on this because, no 
matter how vigorously we seem to defend the actions that we 
take, the actions that follow do not seem to justify it. I 
believe in self-defense, so I am looking for, as I think all of 
us are, what is this path that we need to be looking for.
    Senator Chafee. Thank you, Senator.
    Let us start with the Honorable Dennis Ross. Mr. Ross is 
the director and Ziegler Distinguished Fellow at the Washington 
Institute for Near East Policy here in Washington.

      STATEMENT OF HON. DENNIS ROSS, DIRECTOR AND ZIEGLER 
 DISTINGUISHED FELLOW, THE WASHINGTON INSTITUTE FOR NEAR EAST 
                     POLICY, WASHINGTON, DC

    Mr. Ross. Thank you. I have a statement that I am going to 
submit for the record, but let me encapsulate what I think the 
essence of what you are all looking for is. It is sobering for 
me to be here today because the road where the attack took 
place today is a road that I was on no less than 200 times. In 
the past when I would take that road in there, it was not very 
clear----
    Senator Boxer. Is your mike on?
    Mr. Ross. Is it now? You want to hear me also.
    Senator Boxer. I want to hear what you said in the 
beginning.
    Mr. Ross. I was saying that the road where the attack took 
place is a road that I have been on at least 200 times. In the 
past when I would go into Gaza and I would have security and I 
would have Palestinian security, the one thing that was very 
clear: There would never be such an attack because Hamas or 
Islamic Jihad or whoever is responsible for this would have 
understood that the consequences for doing it would have been 
so disastrous from their standpoint they would not even have 
contemplated it.
    They knew from the Palestinian side, which by the way is 
ultimately the way you are going to solve the terrorism 
problem, that they would face an incredible onslaught from the 
Palestinian security forces if they carried out such an act. 
Now, obviously that imagery does not exist today for them. This 
was not a random act. It took intelligence, it took planning, 
it took organization. And the kinds of groups--even though no 
one has taken credit for it yet either Hamas or perhaps 
Hezbollah helping groups like Hamas are the only groups with 
this kind of capability.
    We had a moment in the spring to change the situation not 
to make peace. Three years ago we were talking about making 
peace. You have to understand where we are today. We are 
talking about ending a war. The intifada started as an uprising 
and it got transformed into a war, and that is what we have had 
for the last 3 years.
    When Abu Mazen became the Palestinian Prime Minister, you 
had a moment. We were not able to capitalize on that moment. I 
was in favor of the President going to Aqaba, but to make the 
most of Aqaba the administration needed before the summit was 
to work out the details on the ground of what the cooperation 
between the two sides was going to be. That was not done.
    The Road Map represented a set of guidelines. It did not 
represent a blueprint, because nobody had the same 
understanding of what its 52 paragraphs represented. This was a 
concept that was negotiated by the U.S., the EU, the Russians 
and the U.N. None of these four parties had responsibility for 
carrying out even one of its steps. The parties who had to 
carry it out were the Israelis and the Palestinians and they 
were asked for their comments, they were told it was not 
negotiable.
    If you did not work out with the two sides how they 
understood each of the obligations, if you did not work out 
what were the standards of performance so everybody understood 
in the same way what was expected of them, you were not in fact 
going to see the Road Map materialize. Now that moment has been 
lost. Abu Mazen is gone, and now we will see whether or not 
there can be a new Palestinian Prime Minister.
    To answer what I think you are most interested in 
he3aring--namely, what can be done now--let me suggest that I 
think that there are six options before us right now not to 
make peace, but to end the war. That is not the issue right 
now. First things first. We have to reestablish the possibility 
of the peace process before we can be talking about what peace 
is going to be.
    The six options are basically what I call: first, the 
muddle down option. Not muddle through; muddle down. Muddle 
down means you continue the way you are going now. You operate 
on an assumption that the two sides will reach a level of 
exhaustion where they will be so exhausted, in such pain, that 
they will find a way to work out of the current predicament.
    I say ``muddle down'' because the situation will continue 
to get worse. The reason I am not an enthusiast for this option 
is because one of the things I think we have to learn from the 
past is that both sides, in fact, have an enormous capacity to 
suffer. So if we think that they just have to suffer a little 
bit more and it is going to be OK, I am afraid that is not the 
case. Moreover, I am afraid that the hole will be dug so deep 
that by the time some new opportunity arises we are going to 
find that it is too hard to climb out of the hole that has been 
dug. So the muddle down option is an option that some people 
may believe in, but I think it is not one that can work.
    The second option: It is basically assuming that Abu Ala, 
the person Arafat has appointed in the emergency cabinet to be 
the emergency Prime Minister, who is himself saying that at 
this point he may not serve more than another 25 days; this 
option assumes that Abu Ala will in fact stay as Prime Minister 
and he will seek in fact to work things out by coopting Yasser 
Arafat. To coopt Yasser Arafat he has to deliver something to 
Yasser Arafat; he can only do so if he coopts Ariel Sharon. In 
reality Abu Ala cannot deliver anything to Yasser Arafat unless 
he can deliver something to Ariel Sharon.
    What is it that he delivers to Yasser Arafat? Well, he 
probably delivers a couple of things. First right now, in the 
aftermath of what happened today, Arafat is likely to be 
afraid. He is likely to believe that the possibility of the 
administration being less concerned about whether the Israelis 
expel him or not is a possibility that perhaps he ought to be 
taking very seriously. He is likely to be concerned that maybe 
the U.S. right now will give a yellow light to the Israelis 
about expulsion, and that will concern him, No. 1.
    No. 2, what he really wants more than anything else is a 
two-way ticket. Sharon has offered him a one-way ticket. He 
wants a ticket out and he wants to be able to return to the 
West Bank of Gaza. Is Ariel Sharon prepared to offer him 
anything like that? Not likely. That is why I say that Abu Ala 
is going to have to coopt Ariel Sharon as well.
    The only way that Ariel Sharon will be coopted is if he 
believes that in fact Abu Ala will deliver on security, and 
that means that Abu Ala is given a carte blanche to organize 
the security forces and to take on Hamas, Islamic Jihad, and 
the Al-Aqsa Martyrs' Brigades.
    Now, Ariel Sharon might well do that, particularly because 
he does not have many other options. I would not bet the farm 
on it, but I will tell you, if the next 6 months look to him 
like the last 2 months have looked, he might well look for a 
deal with Abu Ala. If the Israeli options were so good right 
now, I am not sure they would have attacked the terrorist 
training camp in Syria.
    The reality is they do not have wonderful options right 
now. Expelling Arafat is not a great option from Sharon's 
standpoint, but it reflects a mood in Israel and his own mood. 
Going into Gaza the way they have gone into the West Bank is an 
option, but it is very expensive, and it does not deal with 
what is in fact the threat that took place in Haifa on October 
4. Accelerating the fence may be an option, but it is not a 
near-term option that is going to produce.
    And doing more against the Palestinians on the West Bank 
militarily is something that in fact is difficult to do at this 
point. The Israelis have almost a complete siege on the 
territories. It is not just that you cannot as a Palestinian 
move from the territories into Israel, you cannot move around 
within the West Bank itself. The siege is there for a reason. 
All the checkpoints are there because if you lift checkpoints 
the number of terrorist attacks in Israel will go up, not down. 
So it is not like the Israelis can do a lot of other things.
    If in fact a deal with Abu Ala is possible, if that means 
the Palestinians are policing themselves and not permitting 
Hamas and Islamic Jihad to operate and organize attacks like we 
have seen today, then that may not be such a bad option from 
Ariel Sharon's standpoint. So this option two of coopting 
Arafat and coopting Sharon means a deal between the Israelis 
and this Palestinian Authority, with this Prime Minister, 
assuming he stays.
    Obviously, he is going to have to be satisfied that he can 
work out something with Arafat, and his own negotiations with 
Arafat right now are not going so easily and that is one of the 
reasons he has threatened not to stay.
    A third option: A greater intervention by the United States 
to create a reason for the Israelis to pause in what are their 
daily attacks against Hamas operatives and Islamic Jihad 
operatives and leaders. The Palestinian Authority will not go 
after these groups while the Israelis are doing so. At the same 
time, our intervention must create a justification for the 
Palestinian Authority to act against Hamas and Islamic Jihad.
    Now, that kind of intervention by us would require us to do 
our part with the Israelis, and the Arabs to assume a real 
responsibility with the Palestinians. The President would need 
to go to a collective of Arab leaders and say to them: You now 
have to make it clear that what Hamas and Islamic Jihad are 
doing is a threat to the Palestinian cause, a threat to 
Palestinian interests, certain to undermine the possibility of 
ever achieving a Palestinian state. You have to publicly 
condemn these groups, you have to embrace the Palestinian 
Authority as it confronts these groups, and also deal with 
Yasser Arafat so he does not block Abu Ala and the security 
forces, from taking on Hamas and Islamic Jihad.
    Now, that would take a big move by this administration and 
it would take a revolution among Arab leadership, who to date 
have never condemned Hamas and Islamic Jihad by name.
    Option four would be the expulsion of Arafat. But Arafat is 
an icon to the Palestinians. He put the Palestinians on the 
map. He is the one who gave them standing and recognition. You 
do not beat something with nothing. If you want to expel 
Arafat, what you have to do is show that there is a solution 
and that the reason the solution is not possible is because he 
blocks it, he is the obstacle.
    You believe it and I believe it. Almost all Israelis 
believe it. But Palestinians do not necessarily believe it, and 
what they have to see is that there is a solution out there, 
something that looks like the Clinton parameters, which would 
have created a state in 100 percent of Gaza and 95 to 97 
percent of the West Bank and would have made the Arab part of 
East Jerusalem the capital of that state, or something that 
would make it clear that this Israeli Government is prepared to 
embrace statehood on the Palestinian side, not surrounded, not 
fragmented, which means that many settlements will have to be 
evacuated, and Israelis are prepared to pursue that kind of a 
vision once it is clear that Arafat is gone and there is a 
Palestinian leadership that truly rejects terror.
    A fifth option would be the option of trusteeship. There 
are some who argue for trusteeship on the grounds that the 
Palestinians are never going to be responsible, are simply too 
dysfunctional to be able to build a state on their own, so 
basically the international community, led by us, has to come 
in, we have to go ahead and build the institutions for them, we 
have to assume the responsibility for security, taking on 
Hamas, Islamic Jihad, so that over time the Palestinians will 
be able to build a state.
    There are a lot of reasons I think trusteeship cannot work. 
I do not think that the administration will be too keen to 
engage in nation-building in Palestine given its other 
obligations in nation-building right now. But even beyond that, 
Arafat's most pernicious legacy for the Palestinians is a 
legacy of having created a concept of victim hood, not as a 
reality but as a strategy. Being a victim of strategy creates a 
sense of entitlement, a sense that you never are responsible, 
you are never accountable. No failure is ever yours. Someone is 
always responsible, not you. Somebody else has to do, not you. 
Somebody else has to deliver, not you.
    Trusteeship will reinforce a psychology that is 
inconsistent with peacemaking because it will tell Palestinians 
once again: Somebody else is out there to do it for you. That 
is not a great option.
    The last option is what I call the default option. This is 
not one that I normally would be in favor of because basically 
it reflects the failure of diplomacy, not its triumph. But if 
you do not have option two, which is basically an Abu Ala-
Sharon cooptation option, if you do not have option three, 
which is basically having the Arabs come in and assume a 
responsibility to put the Palestinian house in order and make 
it easier for Palestinians to confront those in their midst who 
reject peace and use terror--and we will not do our part with 
the Israelis in terms of affecting settlement activity--you 
will not have diplomacy as an option and you will not have a 
partner. If you do not have diplomacy you will not have 
security. And if that is the case you are going to have the 
fence or the barrier or the wall.
    Now, the critical thing here is to build it in a way that 
makes it possible still to have a political solution. That 
requires using three criteria to govern how you approach the 
fence. One is security, building it in a topographical way that 
makes it difficult to infiltrate into Israel. Two is 
demographics because you are trying to preserve Israel as a 
Jewish state and that means you cannot be building this in a 
way that absorbs Palestinians into the state. And three is 
preserving a political solution, which means the Israelis have 
to get out of the Palestinians' lives so that they are not 
controlling Palestinian lives, so you reduce the pool of anger 
and alienation, but also so that Palestinians still have an 
incentive to negotiate.
    I am not in favor of building the fence on the Green Line 
except where demographics dictate that. The Palestinians have 
to know that this fence, part of which they will not like, can 
be there 1 year, 2 years, or 50 years. It is up to them to make 
the choice to assume responsibility, and what that means in 
practical terms is we would pursue parallel unilateralism: 
working with the Israelis to build the fence on those three 
criteria, working with the Palestinians so that they would 
assume their responsibilities wherever the Israelis withdraw.
    The red light is on, so I will stop.
    [The following submitted testimony of Mr. Ross is an 
article that appeared in the Fall edition of The National 
Interest:]

  Submitted Testimony of Ambassador Dennis Ross, Director and Ziegler 
 Distinguished Fellow, The Washington Institute for Near East Policy, 
                             Washington, DC

                              Taking Stock

            THE BUSH ADMINISTRATION AND THE ROADMAP TO PEACE

    When the Bush Administration assumed office in January of 2001, it 
shifted direction in a number of foreign policy areas. Nowhere was the 
shift in direction and priority more pronounced than in the approach to 
Arab-Israeli diplomacy. It was not only that the President would not be 
engaged; it was also that there would be no American envoy to the peace 
process. Indeed, in the first months of the administration, the very 
words ``peace process'' were banned from the public and private 
lexicon.
    The policy was one of disengagement. A number of assumptions seemed 
to guide the new approach: the Clinton Administration erred in wanting 
peace more than the parties, with the President having been far too 
involved; Yasir Arafat was indulged too much; the new Ariel Sharon-led 
government in Israel would now rule out being able to achieve much; and 
U.S. interests in the region were threatened far more by Iraq. Dealing 
with that problem--as opposed to the Israeli-Palestinian conflict--was 
more likely to transform the landscape of the area.
    Whatever one thinks about the wisdom of America's intensive, high-
level engagement in the 1990s, disengagement from peacemaking efforts 
was clearly not the answer. In the first years of the Bush 
Administration, with very limited American diplomacy between Israelis 
and Palestinians, the intifada was transformed into a war with a vast 
escalation in the suffering on both sides. For Israelis and 
Palestinians alike, the price they paid for having no peace process was 
very high.
    To put this in perspective, the number of Israelis killed in the 
first four months of the intifada (until the end of the Clinton 
Administration) was 42. By June 2003, over 800 Israelis had been 
killed. Palestinian fatalities went from 350 to nearly 2,500.\1\ The 
wounded amount to ten to twenty times the numbers killed. The economies 
on both sides have also paid a severe price. While the Israeli economy 
is in crisis--having declined in absolute terms every year for the last 
three years--the Palestinian economy has been devastated. More than 60 
percent of Palestinians are presently living below the poverty level, 
and 1.8 million in the West Bank and Gaza are now dependent on 
subsistence from the UN and other international agencies.\2\
---------------------------------------------------------------------------
    \1\ In early 2001, The Toronto Star reported that 42 Israelis, as 
opposed to some 350 Palestinians, had been killed in the first four 
months of the Al-Aqsa intifada (``Global Effort is Necessary to Stop 
Pain in Mideast'', February 11, 2001). According to the Israeli Defense 
Forces (IDF), 841 Israelis have been killed in the period beginning on 
September 29, 2000, the start of the intifada, to August 2003.
    \2\ 0n July 17, 2003, The Financial Times reported that 50 percent 
of the Palestinian population is currently unemployed, while 60 percent 
lives below the poverty line (Christopher Patten, ``A Road Map Paid for 
in Euros'', The Financial Times, July 17, 2003). In his speech on May 
26, 2003, Prime Minister Sharon mentioned the dependence of over half 
the Palestinian population on foreign aid as a key determinant for 
ending the occupation. Speaking before the Knesset, the Israeli premier 
asked, ``Today, 1.8 million Palestinians live thanks to support from 
international organizations. Do you want to take responsibility for 
them yourselves?'' (Chris McGreal, ``Peace hopes lie heavy on new 
force'', The Guardian, June 3, 2003).
---------------------------------------------------------------------------
    But there has been another casualty as well: The psyches of both 
sides have been deeply wounded. Both Israeli and Palestinian publics 
have come to doubt whether they have a partner in peace on the other 
side. The problem is less a loss of confidence and more a loss of 
faith. And that cannot be restored overnight.

The Beginnings of Change
    Under pressure from Arab leaders, especially Crown Prince Abdullah 
of Saudi Arabia, the Bush Administration decided to re-engage in Middle 
Eastern diplomacy in August 2001. The President sent a private letter 
to the Crown Prince, establishing for the first time that U.S. policy 
would be to support a two-state solution to the Israeli-Palestinian 
conflict.\3\ In addition, the Saudis and others were told that the 
President would have a brief meeting with Yasir Arafat on the margins 
of the United Nations General Assembly meetings in New York.
---------------------------------------------------------------------------
    \3\ While the Clinton parameters presented to the two sides in 
December 2000 would have provided for an independent Palestinian state, 
the parameters represented ideas to resolve the differences between the 
two sides, were never stated as formal policy, and were withdrawn at 
the end of the administration.
---------------------------------------------------------------------------
    None of this was announced, and September 11 interrupted the advent 
of a new diplomacy. Given the administration's understandable 
preoccupation with the war in Afghanistan, a new effort on Israeli-
Palestinian diplomacy was put on the backburner. Notwithstanding 
limited efforts to produce a ceasefire later in fall and early winter 
2001-02, the administration's reluctance to engage itself seriously 
remained the guiding principle of its approach. The hesitancy was 
reinforced by perceptions that Arafat was doing little to stop terror, 
had frustrated General Anthony Zinni's effort to negotiate a ceasefire 
agreement, and had lied to the administration about trying to smuggle 
Iranian arms into the territories. Following the IDF's sweep of West 
Bank cities and an unproductive trip to the region by Secretary Powell 
in April 2002, the administration again came under increased pressure 
to do something.
    The result was President Bush's speech of June 24, outlining his 
vision for peacemaking. He publicly called for a two-state solution to 
the conflict. However, by emphasizing a performance-based approach to 
peace, he effectively told the Palestinians that if they wanted a state 
they would have to earn it. They must reform themselves, build credible 
institutions, end corruption, fight terror and create an alternative 
leadership untainted by terror. If the Palestinians did all this, 
Israel needed to accept statehood and ``end the occupation that began 
in 1967.'' \4\
---------------------------------------------------------------------------
    \4\ Published on April 30, 2003, the roadmap called for a 
comprehensive solution to the Arab-Israeli conflict based on two 
states, Israel and Palestine. Linked to this resolution, the roadmap 
specifies, ``the settlement will resolve the Israel-Palestinian 
conflict, and end the occupation that began in 1967, based on the 
foundations of the Madrid Conference, the principle of land for peace, 
UNSCRs 242, 338 and 1397, agreements previously reached by the parties, 
and the initiative of Saudi Crown Prince Abdullah--endorsed by the 
Beirut Arab League Summit--calling for acceptance of Israel as a 
neighbor living in peace and security, in the context of a 
comprehensive settlement.'' During his speech on June 24, 2002, 
President Bush outlined a similar principle, defining the parameters of 
a two-state solution to mean ``that the Israeli occupation that began 
in 1967 will be ended through a settlement negotiated between the 
parties, based on UN Resolutions 242 and 338, with Israeli withdrawal 
to secure and recognized borders.''
---------------------------------------------------------------------------
    While long on exhortation and short on plans, the President's 
speech did create a new basis for the international community to 
address the issue. Palestinian reform became the focal point for 
activity, with emphasis put on creating transparency and accountability 
in the Palestinian Authority (PA). But translating this new emphasis 
into a new reality on the ground was bound to be difficult. There was 
nothing immediately practical in terms of what had been proposed. 
Reform as an objective was very important, but it was unlikely to be 
achievable unless the Israelis would relax their grip on the 
territories so reformers could move, meet and plan. For its part, the 
Israeli government might be a supporter of Palestinian reform--
particularly if it meant sidelining Arafat--but it was not inclined to 
relax its grip on the territories if the result of doing so would be 
new terror attacks in Israel.
    The stalemate remained. Finding a mechanism to act on the 
President's vision is what gave birth to the concept of a roadmap.

Tactical Objective, Strategic Consequence
    Ironically, it was Arab leaders who initially raised the concept of 
a roadmap, notwithstanding their concern that the President's speech 
demanded too much from Palestinians and too little from Israelis. 
Desperate for the United States to intervene, they embraced the 
President's ultimate vision but called for a plan--a roadmap--to get 
there.
    Here again, the administration did not rush to develop a roadmap. 
Arab leaders and Europeans were pleading for one to act on the 
President's words. Both argued that the U.S. position in the Middle 
East was being threatened by the administration's reluctance to defuse 
the Israeli-Palestinian war and its apparent eagerness to go to war 
with Saddam Hussein. Faced with the uncertainty of who to deal with on 
the Palestinian side and with the tactical need to gain support for its 
Iraq policy--or at least the prospect of acquiescence in it--the 
administration agreed to work with the EU, the UN and Russia in forging 
a roadmap to carry out the President's vision. While the United States 
would not let these other countries determine its response to Iraq, it 
would let them shape the conduct of U.S. diplomacy between the Israelis 
and Palestinians--an unprecedented step in the U.S. approach to Arab-
Israeli issues. Few things better indicate that the real objective here 
had less to do with Middle East peace and much more to do with the Bush 
Administration's Iraq policy. Arabs, Europeans and others would find it 
easier to tolerate what the United States was doing in Iraq if the 
administration could point to its making a serious effort on Israeli-
Palestinian peace--or so the thinking went.
    This tactical objective led to a reversal of the traditional 
approach to Arab-Israeli diplomacy. Rather than working out 
understandings with the parties, the administration engaged in a 
negotiation with the members of the Quartet (the United States, EU, UN 
and Russia). Consequently, the roadmap reflected agreement with parties 
that had no responsibility for carrying out even one of the steps for 
which they were calling. Conversely, the parties that would have to 
implement these steps were presented the roadmap after the Quartet had 
already agreed to it. They were each offered the opportunity to make 
comments but not to engage in a negotiation about its content or how it 
might actually be implemented. Perhaps the need to avoid negotiating 
with Yasir Arafat--as well as the desire to have an international 
consensus that would be difficult to reject--influenced the 
administration's approach.
    By definition, however, the roadmap could never be brought to life 
if it were based only on the understandings of outsiders. Indeed, it 
could only materialize with clear and unambiguous understandings 
between the ``insiders'' on what each side would actually do, when they 
would do it, where they would do it and how they would do it. Not 
surprisingly, the roadmap, once unveiled, could not actually be 
launched without an agreed trigger. Though President Bush publicly 
announced the roadmap in March, before the beginning of the war in 
Iraq, it took active diplomacy in June, after the Aqaba summit to 
produce an agreement on initial steps that each side might take.

The Impact of the War in Iraq
    Defeating Saddam was never going to yield peace between Israel and 
the Palestinians. The conflict between two national movements with 
competing historic claims to the same territory was not created by 
Saddam Hussein and was not going to be resolved by his demise. But the 
war and the fall of Saddam's regime did have an impact on U.S. 
diplomacy and on the Israelis and Palestinians. For his part, President 
Bush--as part of the effort to build support for the war--made promises 
to a number of leaders, including Arab leaders, that he would make a 
serious effort on Israeli-Palestinian peace after dealing with Saddam 
Hussein. The more he repeated this privately, the more he became 
sincerely wedded to doing it, and the roadmap, whatever the initial 
motives the administration had for it, suddenly became the President's 
avowed policy.
    As for the Israelis and the Palestinians, neither wanted to say no 
to President Bush, who glowed in the aftermath of Saddam's defeat. 
Prime Minister Sharon--knowing that most Israelis believed that the 
United States had removed a strategic threat to Israel--was not about 
to reject an initiative by the triumphant President. Similarly, neither 
Arafat nor Palestinian reformist leaders had any interest in denying a 
U.S. initiative under these circumstances. On the contrary, 
Palestinians sought the intervention of the world's only superpower to 
transform the situation on the ground.
    There is a big difference, however, between avoiding saying no, on 
the one hand, and actually saying yes to the specifics of what the 
United States might be asking, on the other. Not rejecting the U.S. 
initiative was consistent with wanting to stop the war. Saying yes 
might mean moving toward the difficult decisions involved in 
peacemaking. Such a positive response requires a different mindset--one 
which must demonstrate a willingness to confront constituencies that 
resist compromise and think not only in terms of their own political 
needs but their counterpart's as well. While Saddam's defeat did not 
necessarily create these impulses on either side, it did suggest that 
change was possible and that the moment should be seized at least to 
produce relief for both sides.
    In this sense, the President's initiative came at a moment when 
both Israelis and Palestinians were ready to stop the day-to-day 
struggle that was imposing such pain on each of them. On this point, 
they basically agreed. Their ``agreement'' did not extend to the 
content of peace negotiations or even to the content of the roadmap. 
But it did reflect important developments within each society.

New Realities
    Among Palestinians, the attitude toward the violence had begun to 
change in the period preceding the war in Iraq. Though a majority of 
Palestinians favored violence from the beginning of the intifada--
especially as a way to inflict pain on Israelis who were inflicting 
pain on them--this sentiment began to change in early 2003. In 
February, polls indicated that a slim majority now opposed the 
violence. By June, that slim majority became a more decisive one, with 
73 percent of the Palestinians in the territories favoring an end to 
it.\5\ Palestinians were longing for a return to a more normal life--
one in which the Israeli siege could be lifted and movement of people 
and goods could be restored. No end to the violence would mean no 
lifting of the checkpoints.
---------------------------------------------------------------------------
    \5\ A survey conducted by the Palestinian Center for Policy and 
Survey Research from June 19-22 found that 73 percent of Palestinians 
favored a hudna, a one-year voluntary cessation of violence against 
Israelis. Moreover, 80 percent of respondents favored a joint Israeli-
Palestinian ceasefire of unlimited duration.
---------------------------------------------------------------------------
    Under duress, Yasir Arafat appointed Mahmoud Abbas (Abu Mazen) as 
the first-ever prime minister of the Palestinian Authority. The 
administration skillfully used the Palestinian desire for American 
intervention to increase the pressure on Arafat to make the 
appointment, saying it could only unveil the roadmap when there was a 
credible prime minister. Arafat may have made the appointment only 
because of international pressure, but it was Palestinian reformers who 
first raised the idea of a prime minister. Indeed, Palestinian pressure 
on Arafat for reform pre-dated President Bush's June 24 speech, 
emerging when no one predicted it. Following the Israeli operation 
``Defensive Shield'' of March-May 2002, in which the IDF entered every 
Palestinian city in the West Bank except Jericho and destroyed 
extensive parts of the old cities of Jenin and Nablus as they sought to 
root out terrorist cells, most observers expected the Palestinians to 
be driven by their anger at Israel. No doubt there was anger, but the 
overwhelming sentiment in the territories after Defensive Shield was 
the desire for reform. Reconstruction was what Palestinians wanted: 
they did not want to reconstruct the ``rot'' that had been Yasir 
Arafat's government.\6\
---------------------------------------------------------------------------
    \6\ A poll conducted by the Palestinian Center for Policy and 
Survey Research from May 15-18, 2000 found that 91 percent of 
Palestinians supported ``fundamental reforms'' in the Palestinian 
Authority. Equally noteworthy, respondents favored a number of specific 
actions by a wide majority--including 85 percent supporting unification 
of security services, 95 percent supporting the dismissal of ministers 
accused of mismanagement or corruption, 83 percent supporting holding 
elections and 92 percent supporting the adoption of a basic law or 
constitution.
---------------------------------------------------------------------------
    Palestinians were not prepared to embrace efforts to unseat their 
icon Yasir Arafat, but they wanted him to share power. The emergence of 
Abu Mazen as prime minister represented what reformers had sought, even 
if his cabinet, being the product of difficult negotiations with 
Arafat, was not exactly what they had in mind. No one on the 
Palestinian side had more consistently opposed violence than Abu Mazen. 
At one point, he publicly challenged those, including Arafat, who 
argued for the intifada, saying that it yielded the opposite of their 
stated goals: it extended Israeli occupation, tightened the Israeli 
control of East Jerusalem and strengthened Prime Minister Sharon. To 
Abu Mazen, the continued violence was producing a disaster for 
Palestinians and threatening the cause itself.
    The new Palestinian Prime Minister was not alone in this 
assessment. Critical support for stopping the violence came from Tanzim 
leaders. The Tanzim are the Fatah activists who control much of the 
grassroots organization, especially in the cities of the West Bank. 
Though Marwan Barghouti is certainly the most prominent Tanzim leader, 
the Tanzim tends to be more of a horizontal than a vertical 
organization. Their leaders produced the first intifada from 1987-90 
and have played an important role in the second one. As several of 
their leaders explained to me in June, they initially believed that 
this intifada would prove to the Israelis that force would not work on 
the Palestinians. Instead, it was now clear that force could work 
against either side. Worse, as the intifada continued, their agenda of 
a two-state solution, produced through negotiations, was being 
supplanted by the Hamas agenda of ongoing struggle. Lest there be a 
break in the situation, they were now concerned that the ability to 
produce a two-state solution could be lost.
    The push for a ceasefire came strongly from the Tanzim and 
certainly also reflected the mood of the Palestinian public. In these 
circumstances, Hamas was not about to oppose a ceasefire, believing 
that it could use the respite to rebuild, and that sooner or later the 
Israelis would create a pretext for going back to the struggle.
    In Israel, there was also a readiness to transform the situation. 
Certainly, the Israeli public was ready for it, with two-thirds 
opposing the resumption of targeted killings by the IDF.\7\ But coupled 
with the desire to see the violence end was a feeling that the 
Palestinians, having imposed the recent violence on Israel, must show 
they were serious about stopping it.
---------------------------------------------------------------------------
    \7\ Following the failed IDF attack against Hamas leader Abdelaziz 
Al-Rantissi, a poll published in the Israeli daily Yediot Abronot found 
that 67 percent of Israelis opposed the recommencement of targeted 
killings. Within that group, 58 percent backed a temporary suspension 
of strikes against militant leaders in order to afford Abbas an 
opportunity to curb the activities of extremist groups. Only 9 percent 
of Israelis objected to the policy of targeted killings irrespective of 
circumstances (``Poll: Israelis Oppose Military Strikes'', Associated 
Press, June 13, 2003).
---------------------------------------------------------------------------
    With the emergence of Abu Mazen as prime minister, the Israeli 
public and Prime Minister Sharon saw an opportunity. With President 
Bush's initiative, he saw a need, but the ongoing economic crisis in 
Israel also motivated him. Sharon came to believe that Israel's economy 
could not recover unless the war with the Palestinians stopped--and for 
the first time he publicly began to say so. His call to his 
constituency to understand that Israel must give up the occupation and 
be ready to ``divide the land'' was justified in terms of the 
occupation not being good for Israelis, for Palestinians or for 
``Israel's economy.''
    Exhaustion on both sides certainly helps to explain why there may 
now be a moment to end the war and resume a peace process. Can a peace 
process now be successful? Is the roadmap the vehicle for producing 
success?

The Problems Ahead \8\
---------------------------------------------------------------------------
    \8\ This issue was going to press as Prime Minister Abbas resigned 
on September 6, but the prescriptions for Abbas contained herein apply 
equally to his successor.
---------------------------------------------------------------------------
    The roadmap is not a detailed plan. Having been forged with outside 
parties, it lacks the clarity and definition to be anything other than 
a set of guidelines. Its basic concept makes sense: establish mutual 
obligations and phases designed to restore an environment in which the 
two sides can, in time, once again tackle the core issues of the 
conflict.\9\
---------------------------------------------------------------------------
    \9\ The first phase is designed to produce Palestinian reform and 
Israeli security, with the Palestinians cracking down on the 
infrastructure of terror in their areas and the Israelis withdrawing 
their forces to where they were in September 2000. The second phase 
involves the creation of a Palestinian state with provisional borders, 
creating at least juridical equality between Israelis and Palestinians 
as they negotiate on the existential questions of borders, Jerusalem 
and refugees. The third phase is supposed to resolve those basic 
questions.
---------------------------------------------------------------------------
    Truth be told, the roadmap tries to create a pathway that restores 
the core bargain of Oslo: The Israelis get security. The Palestinians 
get their freedom. Both sides assume responsibilities to fulfill their 
side of that bargain. This is a fair sounding proposition in theory, 
but devilishly difficult to translate into reality.
    The two sides were not involved in developing the roadmap, so it 
should come as no surprise that they would each try to redefine it. The 
Israelis have been public about their concerns and created 14 
conditions--primarily related to security and sequence--that the 
current administration has promised to ``take into account.'' The 
Palestinians have publicly accepted the roadmap without qualification; 
nonetheless, they are trying to redefine it in its application. For 
example, the hudna, or truce declared as an agreement among Palestinian 
factions, is not a part of the roadmap. There is supposed to be an 
immediate, unconditional ceasefire, with the commencement of arrests 
and the dismantling of terrorist infrastructure. But Abu Mazen 
explained that he needed to build his capabilities before taking on the 
main Palestinian obligations in the first phase of the roadmap. He is 
betting that, with calm, the Israelis will take steps both within and 
outside of the roadmap that will allow him to show he is delivering. By 
showing that his way works, that life for Palestinians improves, he 
will build his authority and his leverage on groups like Hamas.
    The irony is not lost on the Israelis: a roadmap that was to 
pressure the Palestinians to produce first on security issues before 
Israel had to take difficult steps is one that in practice pressures 
the Israelis to perform prior to Abu Mazen fulfilling his side of the 
bargain. Indeed, this irony even extends to items not in the roadmap--
neither Palestinian prisoners nor the ``fence'' are addressed in the 
roadmap, but releasing prisoners and halting construction of the 
security fence in the West Bank have become part of the new list of 
Palestinian needs. Israel, recognizing its stake in Abu Mazen's 
success, released some prisoners, lifted some checkpoints and even 
planned additional withdrawals. But the Israelis were never likely to 
withdraw extensively prior to seeing more of a Palestinian effort to 
constrain terrorist groups and their capabilities in additional areas 
of the West Bank. Moreover, Sharon was unlikely to carry out the tough 
steps that the roadmap calls for in the first phase--freezing all 
settlement activity and dismantling all unauthorized settler outposts 
established since March 2001--before seeing Abu Mazen take the tough 
decision to dismantle terrorist infrastructures in the West Bank and 
Gaza.
    Even should Abu Mazen begin to build his authority; it will not be 
easy to dismantle the terrorist infrastructure. Old habits die hard, 
and Palestinians abhor the idea of civil conflict (fitna). Moreover, 
there is another paradox: the longer the hudna goes on, the more 
Palestinians will likely say, ``why rock the boat? Why invite civil 
war?'' For the Palestinians, and the Arab world generally, Palestinian 
obligations in the roadmap have come to be understood as doing the 
hudna and nothing more. Somehow, everything else is up to the Israelis.
    Naturally, Yasir Arafat adds to Abu Mazen's challenges in this 
regard. While claiming that he accepts the roadmap, Arafat opposes the 
disarming of the groups--especially the Al-Aqsa Martyrs' Brigades--and 
criticized Abu Mazen for not getting more from the Israelis for the 
ceasefire. Recall that the roadmap calls for an immediate, 
unconditional ceasefire. This was not something to be negotiated but 
adopted. For Arafat, however, highlighting Abu Mazen's failings are 
essential to demonstrating his own indispensability. He needs Abu Mazen 
to fail to prove that he (Arafat) is not the problem. In this regard, 
Arafat's own iconic status, as well as his control of half of the 
security apparatus, makes him a formidable obstacle to implementing the 
roadmap.
    Does this mean the roadmap cannot succeed? No, but it is important 
to remember that, at this stage, the parties are not even talking about 
the core issues of the conflict. To succeed, even on the initial 
challenges of the first phase, very intensive U.S. efforts will be 
required.

Lessons from the Past
    Israeli and Palestinian expectations about the roadmap continue to 
be different. The United States cannot afford for each to believe that 
the other will take certain steps when it cannot or will not. If Abu 
Mazen cannot deliver soon in certain areas, we must work out what he 
will do, when he will do it and what he needs from the Israelis to do 
it. For example, even more than releases of prisoners, Abu Mazen 
urgently needs to show that checkpoints are being lifted and, at least 
in some areas of the West Bank, the transit of people and goods is 
being restored. What do the Israelis require to withdraw from certain 
cities and the areas around them? What kind of responsibilities must 
they see the Palestinian security forces assuming to enable them to do 
this? If there are acts of terror, what would it take for the Israelis 
to refrain from carrying out targeted killings? The administration's 
role now must be to pose, and help resolve, such questions.
    On the basic issue of dealing with the terrorist infrastructure--
which will soon confront Abu Mazen in a moment of truth--the United 
States needs to take several steps. First, it will need to publicize 
what is expected of both sides. Abu Mazen will need a public posture 
from the United States on the Palestinian obligations under the roadmap 
to explain why certain actions are necessary, especially if the 
Palestinians are to see performance from the Israelis. (Sharon will 
need this no less than Abu Mazen.) Second, the United States should 
conduct three-way security discussions with the Israelis and the 
Palestinians and reach an understanding on which steps would be most 
feasible for dealing with the terrorist infrastructure. While the 
Palestinians have every reason to emphasize the daunting nature of this 
challenge, the history of confronting Hamas should not be ignored. In 
the past, when there were confrontations with the PA, it was Hamas that 
always retreated, and it was not only because of relative strengths but 
also because they, too, shied away from civil war. Third, Abu Mazen and 
Muhammad Dahlan, the Palestinian minister of security, need 
capabilities--especially vehicles, command and control support and 
communications equipment--which the United States has promised but not 
yet provided. This should be a high priority, and, if we have a problem 
furnishing it quickly, the Bush Administration should go to its 
European or Arab partners to fill the gap. (In 1994, the United States 
provided vehicles from excess stocks in Europe, and Secretary of State 
Warren Christopher literally arrived with a C-130 carrying vehicles for 
the Palestinian police.)
    This raises the larger question of assistance. The Israelis are not 
the only ones who can take steps to demonstrate that Abu Mazen is 
delivering. Knowing its stake in showing that Abu Mazen is making a 
difference for Palestinians, the administration should have focused on 
generating a rapid infusion of material assistance. It should have used 
the G-8 for this purpose; it should now organize a donor conference 
with very specific targeted projects in mind. Everywhere the Israelis 
pull out, there should be highly visible projects to aid in the 
reconstruction immediately. Abu Mazen must be seen not only affecting 
Israeli behavior, but also producing tangible assistance from the 
international community quickly. This, of course, also requires Abu 
Mazen to identify critical projects with Palestinian managers ready to 
take charge of them with their international counterparts.
    Politically, the administration will also have to give meaning to 
its readiness to monitor the implementation of the roadmap. John Wolf, 
the head of a U.S. monitoring team, cannot perform that role adequately 
unless clear standards of performance are established. The roadmap 
created the illusion of specificity. It contains 52 paragraphs, with 
extensive obligations enumerated for each side. Monitoring of its 
implementation ought to be straightforward, but it is not because each 
side interprets each obligation differently. The Israelis interpret the 
Palestinian obligations--making arrests, collecting illegal weaponry 
and dismantling terrorist capabilities and infrastructure--far more 
expansively than the Palestinians. In turn, the Palestinians interpret 
the Israeli responsibilities--improving the humanitarian situation, 
stopping the confiscation of property, dismantling unauthorized settler 
outposts and freezing all settlement activity, including natural 
growth--far more expansively than the Israelis. Presently, there is no 
definition of what would constitute performance by either side. Whose 
interpretation are we monitoring? What constitutes fulfillment of 
obligations?
    One of the most important failings of the Oslo process was its lack 
of accountability. Absent this, neither side felt it necessary to 
fulfill its obligations. This is a critical lesson from the past, and 
President Bush has been right to say that the United States will hold 
each side accountable. But there will be no way to do so until very 
clear standards of what constitutes progress on every obligation.
    If the United States imposes its own criteria without discussing 
the matter both bilaterally, and multilaterally, it runs the risk of 
creating standards that cannot be met. The Bush Administration must 
strike a balance between what is feasible and also meaningful--without 
getting into long, drawn out negotiations with each side and the other 
members of the Quartet. But the administration will have to resolve the 
issue of standards, preferably sooner rather than later, all while 
recognizing that it may make one or both sides unhappy in the process.
    This sounds like a daunting task, and indeed it is. Unfortunately, 
no peace process can be had on the cheap. Maybe, the United States can 
sustain a period of calm for longer than three months because both 
sides want a tactical respite. But at this point the administration has 
not yet re-established a peace process. Obligations are being avoided 
more than they are being implemented. If the ceasefire is to last, if 
the current moment is to be translated into something more than only a 
ceasefire, then the United States is going to have to do what it takes 
to create accountability--a goal to which the administration has not 
yet come close.
    Two other lessons from the past must be integrated into the 
administration's approach. Israeli and Palestinian leaders must 
condition their publics for peace, and Arab leaders must assume real 
responsibilities. Oslo was plagued by the absence of any serious or 
systematic effort to get both publics ready for compromise. On the 
Israeli side, under Barak there was at least some conditioning, even if 
it was largely done through press leaks. Somehow, at any rate, the far-
reaching concessions that Barak contemplated came as no surprise to his 
public. Palestinians, on the other hand, were never told they would 
have to compromise on the core issues. On the contrary, Arafat 
repeatedly emphasized to the Palestinians that they would get 
everything, never suggesting they might have to compromise.
    At this point, Ariel Sharon has begun speaking about painful 
compromises and the division of the land. He has accepted Palestinian 
statehood. But this is a state without borders, powers or a capital. No 
one should expect Sharon to offer his fundamental concessions in 
advance of a negotiating process, but at some point the Israeli public 
needs to hear that Israeli withdrawals will form a part of a 
negotiating process; that Israel must give up control of Palestinians; 
that no viable independent Palestinian state can be surrounded by 
Israel; and that a viable Palestinian state must have territorial 
contiguity, not an illusory contiguity that would come by connecting 
different parts of the West Bank by tunnels and bridges.
    For his part, Abu Mazen needs to build his authority before he can 
begin to condition Palestinian attitudes towards compromise on 
existential questions of self-definition and identity. But sooner or 
later this will be necessary. It will not be easy, given a history in 
which any compromise on the core issues has been treated like a 
betrayal. It certainly will not be easy as long as Yasir Arafat retains 
a leading role: he will accuse Palestinian leaders of selling out if 
they even hint at accepting less than total capitulation on borders, 
the status of Jerusalem and refugees. That, of course, is exactly what 
peace requires; curbing expectations and surrendering mythologies.
    This is why Arab leaders must assume responsibilities in the 
process. Ariel Sharon cannot prepare his public to make hard choices if 
the Palestinians are avoiding making any of their own. There will never 
be a Palestinian state unless the Palestinian leadership is willing to 
confront those who remain determined to use the territories to attack 
Israelis. So long as the terrorist infrastructure is intact, how can a 
Palestinian state--even one with provisional borders--be recognized? To 
confront groups like Hamas, Islamic Jihad and the Al-Aqsa Martyrs' 
Brigades, Abu Mazen and the Palestinian leadership will need Arab 
public backing. They will need the umbrella of legitimacy that Arab 
states can provide.
    Arab backing is also a prerequisite for neutralizing Arafat and for 
justifying the idea of making hard compromises. This Arab willingness 
must consist not simply in pressuring Arafat, but also in it publicly 
criticizing his efforts to subvert Abu Mazen's policies. Few steps are 
more likely to temper Arafat's behavior than the possibility that the 
Arabs question him publicly on his stewardship of the Palestinian 
cause. Arafat has always directly identified himself with the cause, 
and Arab leaders have tacitly accepted that formulation.
    Similarly, an Arab willingness to broach the idea of compromise to 
the Palestinians could make it far more palatable for Palestinians to 
do so. Supporting the need for internal confrontation when necessary, 
neutralizing Arafat and being prepared to reaffirm the necessity of 
compromise on the part of the Palestinians as well as the Israelis 
would represent a sea-change for the Arab world and give a genuine 
peace process a chance to succeed. A sea-change, indeed, for Arab 
leaders have always found it useful to pledge their hearts and souls to 
the Palestinian cause--provided, of course, that it cost them nothing.
    Surely, no single cause in the Arab Middle East is more evocative 
than the Palestinian one. No one wants to be on the wrong side of this 
issue. No single Arab leader wants to be accused by Arafat of asking 
the Palestinians to surrender their national rights, and this is the 
real reason no one criticized Arafat for turning down the Clinton ideas 
in December 2000, even as President Mubarak, Crown Prince Abdullah of 
Saudi Arabia, King Abdullah of Jordan, President Ben Ali of Tunisia and 
King Mohammad of Morocco all conveyed to President Clinton the 
sentiment that the ideas were historic.
    Arab leaders must assume their proper role, or there will be no 
success in the near term, when Abu Mazen must confront Hamas and 
company, or in the long term, on the core issues, without Arab leaders 
assuming their part. Their own insecurity and sense of vulnerability 
may again intrude on their assuming responsibilities. The key will be 
how they evaluate the impact of a continuing war between Israelis and 
Palestinians on their polities and their rules. Will it foment anger 
towards them on their streets? Or will it remain an issue that 
generates anger and hostility that can be more easily deflected onto 
the United States?
    One thing is certain: No peace process will succeed without the 
Arabs. If they decide that their stability depends on ending the 
conflict, they may finally do their part. In such a circumstance, the 
United States will have to do its part, which includes making sure that 
no one is let off the hook.

    Senator Chafee. Thank you, sir.
    Now we will go to Rabbi Michael Melchior. He is a Member of 
the Knesset and a former Deputy Foreign Minister. Welcome, 
Rabbi.

  STATEMENT OF RABBI MICHAEL MELCHIOR, MEMBER OF THE ISRAELI 
 KNESSET AND FORMER DEPUTY FOREIGN MINISTER, JERUSALEM, ISRAEL

    Rabbi Melchior. Thank you very much, Mr. Chairman. Also, 
with your permission, I would like to submit my full statement 
for the record and just begin my remarks first of all with 
expressing of course my deep condolences for the terrible loss 
and the tragedy, the crime, which we saw with the killing of 
the three Americans in Gaza.
    I would like to congratulate you for conducting this 
hearing and thanking you for inviting me to participate. There 
are few reasons for optimism in our part of the world and I 
think that maybe this careful research and study by a committee 
like yours will increase your involvement, commitment, and care 
about ending the violence in the Middle East.
    I would like to say that one of the things which is 
important before we go ahead is to try to see what went wrong 
in all the previous attempts. We often do not do that. I myself 
was a Cabinet Minister in Barak's government and later Deputy 
Foreign Minister, as you mentioned. I was part of many of the 
attempts which have been, which Dennis Ross played a very 
central role in. I think that it is important to reach the 
conclusion that there were important elements which were 
lacking the whole way through in all the different attempts we 
made.
    I think one of the things we have to reach and accept is 
that the post-cold war conflicts are different in essence than 
what has been during the last century. I would say even in many 
ways that we are back to the pre-World War I conflicts in that 
the most dangerous wars which we see now in the world in 
general are the wars which are based on, say, civilizational 
aspects. They cannot be solved in the same political, economic, 
and territorial solutions which were in the last century.
    One of the best examples, of course, of this is Yugoslavia, 
where Europe thought that it could pour in economic aid, it 
could hold Yugoslavia together, and what it got was ethnic 
cleansing. I think that we have to realize that also in the 
Middle East a much more central place than what has been 
attributed up until now in the process is on the issues of 
ethnicity, religion, culture, much more than what we consider 
on economy and so on.
    The danger, what the fundamentalists are afraid of, is that 
an American-sponsored peace will introduce a cheap, Westernized 
secular value and destroy a traditional society. It is not a 
coincidence that the intifada, which we now see did not come--
it came at the peak of the peace process. It came not in order 
to end occupation, because if they wanted to end occupation 
they could have done it; we know that. It is an intifada el 
Aqsa, el Aqsa of course being the mosque on the Temple Mount in 
Jerusalem.
    It is based on a religious concept. Therefore I think it is 
important to understand that what the Hamas and the Islamic 
Jihad and the Al Aqsa Martyrs which we are talking about, what 
they want to achieve is to defend their faith. They have built 
a myth that we are in the Middle East only to get rid of Islam 
and to blow up the mosques. That is much more important to them 
than for the Palestinian, I think justified, request and demand 
to have their rights fulfilled.
    Now, the problem is that we continuously are empowering the 
most extreme and totalitarian religious factions in the 
conflict. We are doing it in the press, we are doing it by 
listening to them. They are deciding the paradigms of the 
issue.
    I would like to suggest to you today that we, instead of 
doing that, empower a coalition of moderate forces which are in 
the opposing cultures in the Middle East. I think that the good 
news I could tell you about is that I have been involved in 
many different efforts of this kind. One of them resulted in 
quite a famous summit meeting of all the religious leaders of 
the Middle East in Alexandria, Egypt last year, and in 
consequent meetings we have involved cultural personalities, 
educationalists, and so on.
    We need to make that coalition in order to agree that the 
religious leaders of the Arab world who believe that sanctity 
of human life is a supreme value of Islam--these people have to 
be empowered and not always the al-Qaedas and the Hezbollahs 
and the Hamas people. It can be a religious war and that is 
what it is turning into. If it is a religious war we will never 
be able to solve it. If it is my god against your god, you 
cannot compromise. If it is my civilization against your 
civilization, a clash of civilizations, we will never get 
there.
    But if we, as we have seen, can find the kind of leaders 
who are willing to agree that maybe we have different religions 
and different identities--and do not forget, religion is the 
central identity of the peoples of the Middle East both on our 
side and on the other side. If we can come to an agreement that 
maybe our god and his messengers have different messages, but 
both of our gods and their prophets will not accept us killing 
each other, then a partnership can begin, a totally different 
partnership than we have had up until now.
    We have to take the cultural clash, the clash of 
civilizations, and turn it into an intra-civilizational fight. 
We of Israel, the Jews, we have to fight the extreme elements 
also amongst ourselves, which led to the Baruch Goldstein 
tragedy, to the assassination of our Prime Minister, to what 
many of our extremists are doing today when they know very well 
which buttons to press on the other side in order for there not 
to be progress.
    The other side of course has to do and empower--I think 
that the Nobel Peace Prize which was declared just this week 
was an important step of empowering forces, intra-
civilizational forces, and I think that we should applaud that. 
We need to hear the voice of the coalition in schools, 
synagogues, mosques, media, because if we only broadcast the 
theory of radicals, the totalitarians, then they have a built-
in advantage because in public exposure it is always more 
interesting. Political leaders alone cannot stop the bloodshed. 
If it is not creative, we will not be able to proceed.
    Now, however, I want to become practical also. Besides from 
doing this, I want to become very practical. The first thing is 
that we have to come to an agreement--maybe this is a followup 
of what Ambassador Dennis Ross said--that we cannot come with 
an overall peace solution now at this stage. We should not even 
attempt it, because every time we attempt it and we fail the 
despair, the frustration and the lack of hope is opening then 
again for the extremist elements to be much more dominant.
    Therefore, I think that what we should do is what we are 
doing all kinds of other places in the world: We are trying to 
control and manage conflicts and we are not trying to solve 
them. Look at Cyprus, look at Kosovo, look even at Kashmir, 
although there it is not always successful. We are not trying 
to solve those conflicts now. We hope to do it in the future. 
We are trying to manage them. Those are the new kinds of 
conflicts, which are mainly dominated by religious and ethnic 
opposing sides.
    Therefore what I think we should do now is to dominate--is 
to control the conflict until we can get to a stage, maybe some 
time in the future, but not with dates which will press us and 
then they will not be followed and then the frustration would 
come again.
    I would like to make just four short observations about 
what we need to do immediately. One is to centralize the 
Palestinian Authority, to centralize the military forces and so 
on. You cannot have a state with 20 different armies. It does 
not exist anywhere in the world. It will not exist with us, and 
the Palestinian leadership if it wants a state and it needs a 
state has to do that, No. 1.
    No. 2, we have to understand that today to demand of them a 
Western-style democracy is not achievable at this stage and we 
should not put in a precondition that will not get anywhere. If 
we had demanded that of our neighbors, we would never have had 
peace with Egypt, we would never have had peace with Jordan. We 
have to be able to accept this, although of course democracy 
should be the final goal and aim and we should do everything 
for that to happen.
    No. 3, we have to understand it is not enough to fight 
terrorism or put up a wall. We have to at the same time give 
other options which are political options.
    No. 4, we need today a Palestinian state. It cannot wait 
until the end of some road or in 5 years or in 10 years. I want 
to say very clearly, if there are not two states there will be 
only one state and that state will not be a Jewish and a 
democratic state. Therefore, we as Israelis need--it is not 
something which is a gesture to a Palestinian wish. We need it 
now.
    If it cannot be done--and there my conclusion is the same 
as Ambassador Ross's. If it cannot be done under an agreement, 
which is of course to be preferred in every way and sense, we 
have to do it unilaterally and we have to do it fast. Then of 
course we will have to move to our side of the fence, if we say 
it in that way. The settlements which are on the other side, it 
is not going to be easy to do it, but we will have to do it. 
You cannot build a fence which is security and then continue to 
pour more and more people into the other side of the fence.
    So just to sum up in 1 minute because the red light is on, 
I will say we need to empower a rational, moderate coalition of 
religious, educational, cultural leaders. It is not a fringe 
thing. It is not something you pay lip service to. This is the 
essence of the conflict.
    No. 2, we need a workable, realistic plan which will allow 
us and the Palestinians to live with our differences, but to 
control the violence and stabilize our situation until we can 
get to the biblical dreams of the peace, an absolute prophetic 
peace. We will work for it, but if we do not end the bloodshed 
today it will deny us also the dream of having an overall 
peace, which of course has to be the target.
    Thank you very much.
    [The prepared statement of Rabbi Melchior follows:]

  Prepared Statement of Rabbi Michael Melchior, Member of the Israeli 
     Knesset and Former Deputy Foreign Minister, Jerusalem, Israel

    Ladies and Gentlemen,
    Let me begin by congratulating you for conducting this hearing, and 
thanking you for inviting me to participate. In the part of the world 
where I live, there have been all too few reasons for optimism of late. 
The continued concern and commitment of the government of the United 
States to help the sides reach an agreement, is one of those few. We 
pray that as a result of careful research and study conducted by 
committees such as this, your government's concern and involvement will 
increase and be even more effective, so that we can together arrive at 
a plan to end the violence which plagues us in the Middle East.
    The last decade has, indeed, seen numerous attempts to solve the 
Middle East conflict. From the outset I personally was a strong 
supporter of the Oslo Accords, and as a minister in Ehud Barak's 
cabinet I was closely involved in the Camp David negotiations and their 
aftermath. In spite of all the hope generated by Oslo, in spite of all 
the international support it and later efforts received, none brought 
the desired result. It seems that every time a peace effort is to bring 
us a step forward towards resolving the conflict, we would be driven 
two steps back by yet another terrorist attack. All the peace efforts--
some of the most serious of which, of course, were sponsored by your 
government--were well intentioned and the products of fine minds. Yet I 
think that before we embark on yet another new peace initiative, we 
would be wise to examine the previous efforts to see if perhaps there 
was an important element missing in them all.
    In the tradition of solutions that ended many of the conflicts of 
the twentieth century, recent peace initiatives aimed at an overall 
political solution to the Middle East conflict. I would like to 
suggest, however, that there is a difference between ours (as well as 
some of the other troubling conflicts of the twenty-first century) and 
those of the last one hundred years. In an interesting way, I submit, 
post-Cold War conflicts contain an element more similar to pre-World 
War conflicts, than to those of the 1900's.
    The most dangerous wars of the twentieth century--the wars you and 
I grew up with--were wars of conflicting territorial, economic, or 
nationalistic interests. Today's conflicts may have territorial aspects 
as well, but--like those of more than one hundred years ago--they are 
seen as mostly cultural, ethnic, and religious. They are not wars 
fought between countries; they are wars between civilizations.
    Recent peace-making efforts have been unsuccessful, I submit, 
because they offer only twentieth-century style political/economic/
territorial solutions to what are no longer just political, economic, 
or territorial conflicts. The Europeans thought they could hold 
Yugoslavia together by pouring in economic aid and by suggesting clever 
political solutions. What they got was ethnic cleansing. Today's 
efforts to solve our conflict must be different. Though we think 
otherwise, extremist elements in the Middle East wish to turn the Arab-
Israel conflict of today into one aspect of the new century's overall 
clash between the Western Judeo-Christian civilization, and Islam. It 
is not hard to realize why they do so. Jews and Moslems see their 
religions as a major element in determining their identity. If 
fundamentalists persist in portraying an American-sponsored peace as an 
invasion of cheap Western, secular values, then peace initiatives 
become threats to the traditional lifestyles and religious values that 
zealots would die to preserve.
    Totalitarian Moslems see Israel as an outpost and vanguard of 
Western, secular society. Making peace with Israel, recognizing its 
legitimacy, is a threat to the integrity of Moslem civilization in its 
heartland, the Middle East. No territorial compromise with ``the small 
Satan'' [the U.S.A. is ``the big Satan''] is possible, and no 
suggestions for political or economic resolution to the conflict can be 
sufficient.
    Extremists among the Palestinians have demonstrated this 
repeatedly. We must remember that the present ``Intifada'' began in the 
immediate wake of the Camp David negotiations where the Palestinians 
were offered a much more than just ``generous'' offer of territory and 
economic benefits. The violence today is not--as the Palestinians would 
have the West believe--about Israel's ``occupation'' of Palestinian 
territory. Mr. Arafat was offered an end to ``occupation'', and he 
turned it down! Rather than embracing political, territorial, and 
economic solutions offered, the Palestinians began the current wave of 
violence, calling it ``Intifadat el Aksa''. [El Aksa is a mosque on the 
Temple Mount in Jerusalem.] They have denied historical fact, and 
replaced it with a myth. They now claim that there never was a Jewish 
Temple in Jerusalem. Our sincere concern for what is in fact Judaism's 
holiest site, is depicted as a fabrication to hide Israel's secret aim 
of attacking the mosques now there. Palestinian terrorists seek--and 
receive--support from Moslems all over the world, glorifying the blood 
they shed as part of this century's historic and holy fight to defend 
Moslem civilization from an attack by Western civilization's puppet in 
the Middle East, Israel.
    The Hamas, Islamic Jihad, and el Aksa Martyrs who terrorize Israel 
as part of ``Intifadat el Aksa'' are not out to end Israel's occupation 
of parts of the Gaza strip or the West Bank. They are out to defend 
Islam from the threat of the West. Offering to satisfy the territorial 
or national aspirations of the Palestinians will not satisfy them. They 
are not Palestinian nationalists fighting a twentieth-century kind of 
war. They represent maximalist, totalitarian elements in Islam that 
cannot tolerate any foreign impingement on Moslem territory. They see 
themselves as Moslems defending the faith, more than Palestinians 
fighting for their rights.
    If we accept their paradigm, that the Arab-Israel conflict is in 
fact a clash of civilizations (modern Western society versus 
traditional Islam) rather than a conflict of national interests 
(Palestinians versus Israelis), we will be guilty of empowering the 
most extreme, totalitarian religious factions involved in the conflict, 
and condemn ourselves to ever-escalating violence led by zealots. I 
would like to suggest an alternative. I would suggest that world 
leaders instead empower a coalition of civilizations of moderate forces 
from within opposing cultures. I hope that the world's political 
leadership will seek out Moslem and Jewish religious leaders, who--
while not compromising their faith--still recognize the need to suspend 
implementation of fundamental beliefs, in favor of achieving peaceful 
co-existence with a neighboring civilization. Once found, these 
moderate religious leaders must be joined in a cross-cultural coalition 
to counter the extremists in each camp. This, ladies and gentlemen, is 
the only way to avoid a violent clash of West versus East, of 
Christians and Jews versus Moslems. And--unlikely as it may sometimes 
seem--it is viable. Though the totalitarian radical elements of Islam 
gain headlines today, I can assure you from the work I have done in 
recent years, that there are religious leaders in the Arab world who 
teach that the sanctity of human life is a supreme value of Islam. 
Extremists in my own religious camp pervert Jewish teachings to justify 
dastardly acts like that of Baruch Goldstein and the assassination of 
Prime Minister Rabin, and manipulate holy texts to prevent progress 
towards peace. But rabbis in Israel know that our true Torah is a Torah 
of peace, and our holy texts in fact teach us the need to live in peace 
with our neighbors.
    An imam and a rabbi may disagree over many things. One's God and 
His Messengers may not be like the other's. But if both agree that 
neither of their gods and prophets wants us to kill each other, then a 
partnership can begin. I have met many prominent Moslem, Jewish, and 
Christian leaders in the Middle East who are ready to join such a 
coalition. In January of 2002, in Alexandria, Egypt, religious leaders 
of the highest stature (including the Archbishop of Canterbury, the 
dean of the el Azhar seminary in Cairo, and the Chief Rabbi of Israel) 
met and laid the foundation for a coalition of rational, moderate 
religious leaders. Subsequent contacts and meetings, with top religious 
leaders of Sunni Islam in the Palestinian Authority and all over the 
Moslem world, demonstrate that the coalition is not only needed, but 
practically feasible.
    The true ``culture clash'' will actually be an intra-civilizational 
fight to change public opinion in the two societies, a clash between 
the totalitarian extremists (both Moslem and Jewish) on the one side, 
and the rational moderates (both Moslem and Jewish) on the other. The 
political leaders of today must do much more than pay lip-service in 
support of the religious moderates. It must be a top priority for the 
enlightened world to empower them. We should all applaud the Nobel 
Peace Prize committee for taking a first step in this direction. The 
governments of the world must summon all the creativity and resources 
at their disposal to enable a coalition of moderate religious leaders 
to change the way their constituents perceive adherents of competing 
civilizations. The voice of this coalition must be heard overpoweringly 
in local media, in schools, synagogues and mosques. The media prefer to 
broadcast fiery radicals, and extremists have a built-in advantage in 
the competition for public exposure. Moderate religious leaders must be 
given whatever tools they need to redress this imbalance, and educate 
their peoples towards realistic moderation, rather than romantic 
martyrdom. Otherwise, the extremist religious elements will continue to 
dominate public opinion and fan the flames of violence.
    My call to empower a moderate religious coalition, I know, runs 
counter to conventional wisdom. But the peacemakers of today must not 
repeat the mistake of their predecessors, and ignore religious issues. 
It was a mistake to believe that if political issues could first be 
solved, religious issues would somehow work themselves out later. 
Religion is the core of the cultural identity of both Arabs and Jews. 
It must be given a top priority in any agreement between them. 
Religious and cultural leaders, therefore, are needed at the outset and 
in the forefront to address our problems in the twenty-first century. 
Political leaders alone cannot stop the bloodshed.
    What are the realistic goals of those who would end the violence in 
today's world? Let me begin by stating clearly: an immediate resolution 
of the differences between civilizations is not a realistic goal. The 
differences among civilizations--especially when religion is an 
important element--are so profound that we cannot expect them to be 
resolved in the near future.
    That does not mean, however, that the situation is hopeless. Though 
we cannot resolve our differences, we may still learn to live with 
them. We may not be able to end the tension between us, but we can keep 
it from running out of control. Previous attempts to bring an overall 
peace to the Middle East were admirable and honorable. They offered 
solutions to what were perceived as the basic problems dividing Israel 
and its neighbors. But they failed. The differences between us and the 
Arabs are deeper and of a different nature than yesterday's peacemakers 
realized. In addition, the rash of terrorist attacks on our population 
centers has changed public opinion in Israel. Sadly I report to you, 
that many even of our moderate citizens doubt the intentions of the 
Palestinians, and consider an overall peace agreement unrealistic. 
Controlling the violence is the most Israelis think can be achieved in 
the foreseeable future.
    The Biblical vision of world peace, when the wolf dwells happily 
with the lamb, remains a dream for the End of Days. We can, however--
sadly perhaps--lower our sights and aim not for a full resolution of 
the conflict, but for control and stabilization of the situation. An 
end to violence, a partial peace, a ``piece of peace'' if you will, is 
achievable, and our best alternative until, some day, the dream of an 
overall peace will become real.
    Ours, of course, is not the only conflict of this century where 
ethnic, cultural, and religious differences exacerbate the tension. 
There are those who see the tensions in Kosovo, Cyprus and Kashmir as 
clashes of civilizations, no less. There, world leadership has--wisely, 
I think--proposed practical methods to control violence and stabilize 
the situation, rather than trying to reach an overall resolution to the 
vast differences between the cultures in conflict. Though those 
practical proposals have not yet proven uniformly successful, the world 
recognizes they are the best means to address the situation. I find it 
curious that only in the Palestinian-Israeli conflict, does the world 
repeatedly press for an overall resolution of the problem. The ``piece 
of peace'' approach has not failed elsewhere. I suggest we give it a 
try in our part of the world as well.
    What are the elements necessary for us to have our ``piece of 
peace''? I would like to share with you four observations that I think 
will help us bring violence under control and learn to live with our 
differences.
    Firstly, if the Palestinian leadership wants a state of its own, it 
must realize that no state can exist with uncontrolled armed militias 
in its midst. It must take immediate steps to centralize authority and 
control the terrorist organizations many of which, by the way, threaten 
its own legitimacy as well. (Totalitarian extremists have no tolerance 
for less-extreme elements in their own society, either.) It will not be 
easy to disarm Hamas and the Islamic Jihad, but the Palestinian 
leadership has no choice but to face up to the challenge.
    Secondly, we cannot insist on Palestine becoming a Western-style 
democracy as a pre-condition for ending the violence. Demanding that 
the Palestinians become a democracy makes good sense, for we know that 
democracies don't make war on each other. But, if we were to insist on 
making agreements with democracies only, we would not have peace today 
with any of our neighbors. We'll be happy when the Palestinians show 
more of an inclination towards forming a true democracy, but we don't 
have to suspend our efforts to stabilize the current situation, while 
we wait for them to do so.
    Thirdly, though we must do all in our power to combat terror, we 
must realize that stopping today's terrorists is not our only goal. It 
is in Israel's best interest that the Palestinians have a viable, 
prosperous state. The humanitarian catastrophe visited on the 
Palestinian people by the current conflict pains us as moral human 
beings, as well as--on a practical level--provides a breeding-ground 
for future suicide bombers.
    And finally, we must physically separate ourselves from the 
Palestinians. We shall have to divide into two states: one Jewish and 
one Palestinian. As Zionists, we know that Israel must be a Jewish 
democracy where human rights are safeguarded. Given the demography of 
the region, if there will be only one state between the Mediterranean 
Sea and the Jordan River, it will not be Jewish, and/or it will not be 
a democracy. We would like to negotiate with the Palestinians to bring 
about this separation, but given the problems with the present 
Palestinian leadership, imminent success for such negotiations seems 
unlikely. Until we can negotiate agreed borders, we may be forced to 
pull out of the Gaza Strip and much of the West Bank unilaterally, and 
establish a secure division between us and the Palestinians. I wish to 
emphasize that we consider an agreed-upon border to be preferable (and 
would likely be better geographically for the Palestinians), but Israel 
has the right to secure borders, and will in the meantime assert that 
right unilaterally, if necessary. This will be no easy matter for us in 
Israel. Many well-intentioned idealistic settlers will have to be 
uprooted from the homes they built and have lived in for thirty years. 
In addition, a unilateral withdrawal risks being seen as rewarding the 
terrorists, who will undoubtedly claim that it was their violence that 
drove the Jews out of occupied territory. I submit, however, that true 
victory for terrorism is the continuation of the uncontrollable 
violence of today. If we take these admittedly painful steps to bring 
the situation under control and to manage it on our terms rather than 
theirs--we will have sent a message to the terrorists that their days 
have become numbered, that their cause eventually will be lost.
    Ladies and gentlemen, there is today despair among Palestinians and 
Israelis. After every terrorist act, with every funeral, even those who 
once thought there was a chance for peace find it harder to believe 
that there are partners left on the other side. Unsuccessful peace 
initiatives by powerful and well-meaning friends, only deepen the 
despair.
    Totalitarian factions would turn our national differences into an 
insoluble clash of civilizations. We ask our friends to help us empower 
a rational, moderate coalition of religious and cultural leaders from 
both sides, who will provide an alternative to those totalitarian 
extremists who now dominate public opinion and make real peace 
impossible.
    Our friends who would help us achieve peace must appreciate that 
full peace may not be as immediately attainable as we had all hoped. 
Rather, we ask that they help us develop a workable, realistic plan 
that would allow us and the Palestinians to live with our differences, 
control the violence, and stabilize our situation.
    Ladies and gentlemen, we Jews end all our prayers with a blessing 
and wish for peace for our people. When we depart, as it were, from our 
sanctuary of prayer, we bow and take three steps backwards. The late 
Chief Rabbi of the British Empire, Rabbi Emmanuel Jacobovits, pointed 
out how proper it is that before asking the Almighty to make peace for 
us, we step back and thus make room for others. If we are so full of 
ourselves that we cannot make room for others, there can never be peace 
among us. And there is no greater blessing for Israel than peace. Let 
us pray that the leaders of the world have the wisdom to encourage all 
of today's combatants in all of today's conflicts, to allow room for 
broad cultural, religious, and ethnic spaces, wide enough to 
accommodate others and their hopes for peace, as well. And if the Peace 
of our Biblical prophets must remain a dream for tomorrow, let us have 
the wisdom to end the bloodshed today, that would deny us even that, 
our cherished dream.

    Senator Chafee. Thank you, Rabbi, very much.
    Now we will go to Mr. Dror Etkes, who is the coordinator of 
the Settlements Watch Project for Peace Now and has also come 
here from Jerusalem. Welcome, Mr. Etkes.

     STATEMENT OF MR. DROR ETKES, DIRECTOR OF PEACE NOW'S 
          SETTLEMENTS WATCH PROJECT, JERUSALEM, ISRAEL

    Mr. Etkes. Thank you, Chairman Chafee, Ranking Member 
Boxer, and other distinguished members of the subcommittee: 
Shalom.
    My name is Dror Etkes. I am the director of the Israeli 
Peace Now movement's Settlements Watch Project. First I want to 
express my grief and outrage over the attack this morning 
against America officials in the Gaza Strip.
    It is a great honor and a tremendous privilege for me to 
appear before you today on behalf of Peace Now to discuss the 
settlements movement and its relationship to the Israeli-
Palestinian peace process. As an Israeli who is deeply 
committed to his country and works every day to preserve its 
future as a Jewish and democratic state, I deeply appreciate 
the subcommittee for taking such an interest in my homeland in 
our search for peace. I also appreciate the high level of 
support that the Congress has provided to Israel since its 
birth.
    Before I discuss the settlements, I want to say a brief 
word about the organization that I represent and mention that 
my written testimony contains many more details about the 
points I will make in the opening comments this afternoon.
    Peace Now was established in 1978 when 348 reserve officers 
and combat soldiers of the Israeli Defense Forces issued an 
open letter urging Israel to reach a peace agreement with 
Egypt. What was true then is still true today: We are a Zionist 
organization with roots in the military and security 
establishment that believes peace is essential for ensuring 
Israel's long-term security.
    Peace Now established Settlements Watch because we have 
always thought that settlements in the occupied territories 
threaten our existence as a Jewish democratic state, weaken the 
security of Israel, drain our economic resources, and serve to 
maintain Israeli rule over another people, thereby preventing 
Israel from reaching peace with the Palestinians. The 
settlements today pose an existentialist threat to the future 
of Israel. The West Bank and Gaza are not empty. Beside the 
settlers, there are now about 3.5 million Palestinians and, 
given demographic trends, those Palestinians combined with 
Israeli Arabs who live inside the Green Line will guarantee 
that Jews will soon be a minority and Arabs will be the 
majority in the land between the Jordan River and the 
Mediterranean Sea.
    When that day comes, Israel will cease to be a Jewish 
democracy state. We will no longer be a Jewish country because 
Israeli Jews will be outnumbered by our Arab neighbors. As a 
result, we will be forced to become a binational state lacking 
any prospect for stability. Or we will choose to forego all 
acceptable norms of democracy in order to maintain Jewish 
minority supremacy over an Arab majority. Both of these options 
should frighten all friends of Israel.
    Settlements weaken our security because each settler, each 
settlement, and each bypass road requires protection from the 
Israeli military. In the West Bank the Israeli line of defense 
is roughly ten times longer than the Green Line because of the 
need to protect the settlements and their supporting 
infrastructure.
    A recent extensive study by, Ha'aretz found that Israel 
spent a little under half a billion dollars a year to maintain 
about 10,000 troops in the occupied territories prior to the 
intifada. Ha'aretz also found that our Defense Ministry is 
spending roughly double that amount today, more like $1 
billion, because of the ongoing violence. Beyond stretching 
Israel's defense capabilities, the settlements movement costs 
Israeli taxpayers at least $556 million in extra non-military 
spending each year, according to Ha'aretz.
    Finally, Peace Now is concerned about settlements because 
they work to ensure that the Israeli and Palestinian 
populations are woven together throughout the territories and 
to make it impossible to separate the two societies into two 
viable independent states.
    Now let me turn to the question of the role the settlements 
play in the peace process at the present time. It is important 
to keep in mind that, despite the fact that settlements are a 
significant obstacle to peace, there is no moral equivalency 
between settlements and terrorist attacks, nor are settlements 
the only cause of tension between Israelis and Palestinians. At 
the same time, settlements have a lot to do with what Israel 
has failed to deliver through negotiations with the 
Palestinians that are based on the concept of exchanging land 
for peace.
    Here are the basic facts. There are approximately 230,000 
settlers today living in 145 settlements in the West Bank and 
Gaza considered official under Israeli law. In addition, over 
120 settlement outposts have been established since 1996 
without proper Israeli authorization. Settlement construction 
covers only a tiny fraction of the occupied territories, but 
Israel has expropriated approximately 50 percent of the West 
Bank land through various methods. Contrary to popular belief, 
settlement expansion actually continued during the Oslo years, 
between the years 1993 and 2000, with the settler population 
nearly doubling. In addition, thousands more settlement housing 
units were built.
    The ultimate fate of official settlements is left as an 
issue for Israel and the Palestinians to resolve in a final 
peace agreement. But the Road Map details specific steps that 
Israel must take in the first phase of the process in order to 
prevent settlements from becoming an even worse dilemma. These 
steps should be taken by Israel whether or not this particular 
plan is successful.
    Israel is required to immediately dismantle settlement 
outposts erected since March 2001. These outposts were 
established without authorization for a specific reason, to 
complete the chain of Israeli settlements along the areas to 
remain under complete Israeli control according to the Oslo 
Accords, just about 60 percent of the West Bank, and to connect 
them with the other settlements deep in the West Bank in order 
to form more solid blocks of communities.
    It was Ariel Sharon, then Foreign Minister, who in October 
1998 called upon the settlers to grab the hilltops in order to 
establish new settlements to prevent the land from being turned 
over to the Palestinians. During this period, roughly 50 new 
settlement outposts were established. This process reached a 
peak during the first Sharon government, during which 
approximately 75 new outposts were built.
    At this point, over 120 settlement outposts have been 
established since 1996. Few have been truly evacuated and the 
settlers continue to push to build new ones and strengthen 
older outposts every single day.
    Israel is also required to freeze all settlement activity, 
including natural growth of settlements. Successive Israeli 
governments have used the excuse of natural growth as a 
loophole through which more settlements, housing, and bypass 
roads have been built and more settlers brought to the occupied 
territories.
    It is true that some settlers move there for ideological or 
religious reasons, but they are a distinct minority. The vast 
majority of the settlers, 77 percent of them according to the 
polling results, moved to the occupied territories for quality 
of life reasons. Basically, Israeli governments have offered 
extensive economic incentives that make it significantly 
cheaper for Israelis to live in the West Bank and Gaza than 
inside the Green Line. A real freeze on all settlement activity 
would require an end to these subsidies, but in general they 
continue.
    Peace Now hired an independent Israeli accounting analyst 
to examine government spending on West Bank and Gaza 
settlements in 2001. He found that in 2001 Israel spent at 
least $440 million in what can be considered surplus spending 
on the settlements movement, not counting military and some 
civilian spending. Israel received $838 million in its annual 
economic grant from the United States in 2001. This means that 
Israel spends the equivalent of over half of the amount on 
settlements that year, excluding security expenses. As I 
mentioned earlier, the more extensive Ha'aretz study found that 
Israel now spends at least $556 million a year extra on 
settlements activity, not including military expenditures.
    Let me now turn to the controversy that surrounds the 
security fence that Israel is building in the West Bank. There 
is nothing inherently wrong with Israel erecting a security 
barrier between us and the West Bank. In fact, the whole idea 
of such a fence, which Peace Now supports, comes from the Labor 
Party and other concerned Israeli organizations. They pointed 
out in the early days of intifada that it is crazy for Israel 
to allow its border along the West Bank to remain wide open to 
terrorist infiltration. After all, a fence that runs along the 
1967 border near Gaza has never been penetrated by a single 
Palestinian terrorist.
    However, the security barrier that Prime Minister Sharon is 
building in the West Bank strays far from the original plan of 
erecting a fence along the Green Line. Prime Minister Sharon 
strongly opposed the initial concept of a fence because he 
knows that it has political implications. Building it along the 
Green Line would imply that settlements left on the other side 
would be likely candidates for dismantlement once final borders 
were established with the Palestinians. As a result, the 
settlers and their supporters began to clamor to have as many 
settlements as possible on the Israeli side of a fence.
    It is only the prospect of using the fence to reinforce 
Israeli settlements and Israel's hold on about 50 percent of 
the West Bank that has gained the Prime Minister's support. 
Ironically, Prime Minister Sharon's proposed fence route would 
bring hundreds of thousands of Palestinians who live near the 
settlements inside Israel's line of defense. These Palestinians 
will be angry for being cutoff from their farm lands, 
relatives, and social services in the process.
    Pushing the fence deeper into the West Bank also will 
greatly increase the cost to Israel of building the barrier, 
with the segment enclosing the settlement of Ariel adding about 
$224 million to the price if it is completed.
    Finally, a longer fence will place additional strain on the 
military, which will need to guard and defend the barrier along 
much more difficult terrain than if the fence ran along the 
Green Line.
    Peace Now encourages the Senate to support Israel's right 
to build a security fence, but we also strongly urge you to 
support President Bush's objection to the specific route of the 
fence being proposed to accommodate settlements.
    Last, it is important to point out that the positions that 
the Peace Now take on settlements are much more reflective of 
public opinion in Israel and the American Jewish community than 
those of the Sharon government. Independent surveys in Israel 
consistently show solid majorities in support of withdrawing 
settlements if a peace treaty is reached. Polls commissioned by 
Peace Now's U.S. sister organization, Americans for Peace Now, 
also show strong American Jewish support for a settlement 
freeze and an end to Israeli occupation of the West Bank and 
Gaza.
    Peace Now also recently commissioned an independent firm to 
survey settlers themselves about the peace process. We found 
that 83 percent of the settlers would agree to leave the West 
Bank and Gaza in exchange for compensation. In fact, 29 percent 
of them would leave the settlements today if they could. Only 
one, up to two, percent would use all means to resist 
evacuation. In other words, should the time come when Israel 
has to make some tough decisions on settlements the vast 
majority of the settlers will not necessarily stand in the way.
    Let me conclude by stressing that Israel's failure to meet 
its obligations regarding settlements is not an excuse for the 
Palestinian Authority's failure to meet its obligation to 
combat terrorism and undertake numerous reform efforts. Both 
sides must take steps in parallel to make this particular peace 
plan succeed. At the same time, I would suggest to you that, 
whether or not the Road Map is implemented, supporting the 
current Israeli government's policy on settlements and the 
fence is not in Israel's best interests. The continuation of 
settlement growth will spell an end to the Zionist dream 
regardless of whether terrorism is crushed today or not for the 
years to come.
    Please, help us to meet this challenge. One way that you 
could help is to consider a proposal made by Americans for 
Peace Now about what to do with money that may be deducted from 
the loan guarantee package that Congress has generously 
provided to Israel. This money is to be deducted because of 
Israeli spending on the settlements. Instead of having Israel 
lose these guarantees, this portion of the guarantee should be 
placed in a set-aside account to help fund housing construction 
inside the Green Line for settlers who want to return to 
Israel. No account like this exists today. Helping establish 
one would send a constructive message about settlements. It 
would also demonstrate compassion for settlers who do not have 
the money to move back home.
    Again, I appreciate the opportunity to testify before this 
distinguished panel. I would be happy to answer any questions 
you may have about settlements. Thank you.
    [The prepared statement of Mr. Etkes follows:]

     Prepared Statement of Mr. Dror Etkes, Director of Peace Now's 
              Settlements Watch Project, Jerusalem, Israel

    Chairman Chafee, Ranking Member Boxer, and other distinguished 
members of this subcommittee:
    Shalom.
    My name is Dror Etkes, and I am the Director of the Israeli Peace 
Now movement's Settlements Watch Project. It is a great honor and a 
tremendous privilege for me to appear before you today on behalf of 
Peace Now to discuss the settlement movement and its relationship to 
the Israeli-Palestinian peace process, which regrettably has stalled 
because of the violence and failure of both sides to implement their 
basic obligations.
    As an Israeli who is deeply committed to his country and works 
every day to preserve its future as a Jewish, democratic state, I 
deeply appreciate this subcommittee for taking such an interest in my 
homeland and our search for peace with our neighbors.
    I also appreciate the high level of support that Congress has 
provided to Israel since its inception. Your consistent backing has 
been, and will continue to be, essential to the well-being of my 
country.

             BACKGROUND OF PEACE NOW AND SETTLEMENTS WATCH

    Before I discuss the settlements, I want to say a brief word about 
the organization that I represent.
    Peace Now was started in 1978 when 348 reserve officers and combat 
soldiers of the Israel Defense Forces issued an open letter to then-
Prime Minister Menachem Begin urging him to reach a peace agreement 
with Egypt. From this beginning, Peace Now was born and quickly became 
the largest grassroots movement in the history of Israel.
    What was true then is still true today: we are a Zionist 
organization with roots in the military and security establishment that 
believes peace is essential for ensuring Israel's long-term security.
    Over the years, Peace Now has organized large demonstrations--
involving hundreds of thousands of Israelis--on behalf of peace, as 
well as established a series of projects to do research and analysis 
about issues that are related to the peace process. One of these 
projects is called Settlements Watch, which I currently direct.
    Settlements Watch was established because Peace Now has always 
thought that settlements in the occupied territories threaten our 
existence as a Jewish, democratic state, weaken the security of Israel, 
drain our economic resources, undermine our society's moral fiber, and 
serve to perpetuate Israeli rule over another people in a way that 
prevents Israel from reaching peace with the Palestinians.
    The settlements today pose an existential threat to the future of 
Israel.
    Let me be very clear: it is in Israel's own best interests to 
separate itself from settlements and the occupied territories that the 
settlers would have us bind to the state.
    The former head of Israeli military intelligence, Yehosephat 
Harkabi, summed up the problem like this in a lecture to an American 
audience during the Cold War. He said, ``You Americans have the most 
powerful army in the world. No one can challenge you. But if you had 
120 million Russians living in America--all completely loyal to the 
Soviet Union--your great army would be of no use and you would not be 
safe. That is our situation. The simple fact is that we must either 
have a Palestinian state in our neighborhood or we will become a 
Palestinian state.''
    Our circumstances have not improved since Harkabi spoke those 
words. The West Bank and Gaza are not empty--besides the settlers, they 
are now home to about 3.5 million Palestinians. And given demographic 
trends, those Palestinians, combined with Israeli Arabs who live inside 
the Green Line, will guarantee that Jews will soon be a minority in the 
land between the Jordan River and the Mediterranean Sea.
    When that day comes, Israel will cease to be a Jewish, democratic 
state. We will no longer be a Jewish country because Israeli Jews will 
be outnumbered by our Arab neighbors, and therefore we will be forced 
to become a bi-national state, with the prospects for a civil and 
stable bi-national state being virtually impossible. Or we will choose 
to forego all acceptable norms of democracy in order to maintain Jewish 
minority supremacy over an Arab majority.
    Both of these options should frighten all friends of Israel in the 
Senate and elsewhere in the United States. But we will rapidly be 
forced to choose between these options unless firm measures are taken 
immediately to free us, our allies, and our neighbors from the 
stranglehold of the settlements.
    Settlements weaken our security because each settler, each 
settlement, and each bypass road connecting Israel to the settlements 
requires protection from the Israeli military. Our soldiers are 
required to put their lives on the line every day to defend Israeli 
communities deliberately placed in the midst of Palestinian population 
centers in order to break up Palestinian territorial contiguity. In the 
West Bank, the Israeli line of defense is roughly ten times longer than 
the Green Line because of the need to protect the settlements and their 
supporting infrastructure.
    A recent extensive study by a leading Israeli newspaper, Ha'aretz, 
found that Israel spent a little under a half billion dollars a year to 
maintain about 10,000 troops in the occupied territories prior to the 
Intifada. Ha'aretz also found that our Defense Ministry is spending 
roughly double that amount, more like $1 billion, these days because of 
the ongoing violence. These are troops and money that could be 
committed to defending our border.
    Beyond stretching Israel's defense capabilities, the settlement 
movement costs Israeli taxpayers at least $556 million in extra non-
military spending each year, according to the Ha'aretz study.
    Total spending on settlements has amounted to over $10 billion 
since 1967.
    Settlements also harm Israeli interests by undermining the 
political authority of moderate Palestinian leaders, the sort of 
leaders who are interested in stopping terror. For these leaders to be 
able to advance their political agenda, they need to prove to their 
constituents that a non-violent path of negotiations can lead to a 
future Palestinian state in the West Bank and Gaza. They are battling 
every day for the hearts and minds of the Palestinian street. 
Settlement construction delivers a message layered in concrete and 
steel that Israel is not interested in negotiations.
    Finally, Peace Now is concerned about settlements because they work 
to ensure that Israeli and Palestinian populations are woven together 
throughout the territories and make it impossible to separate the two 
societies into two viable, independent states.
    This is not an accident. This is the result of deliberate planning 
by the settlement movement and its supporters in different Israeli 
governments over the years, especially our current Prime Minister, 
Ariel Sharon.

                   SETTLEMENTS AND THE PEACE PROCESS

    Now let me turn to the question of the role that settlements play 
in the peace process at the present time.
    It is important to keep in mind that despite the fact that 
settlements are a significant obstacle to peace, there is no moral 
equivalency between settlements and terrorist attacks. There is 
obviously a difference between building a red-roofed home in the West 
Bank and sending a suicide bomber to take the lives of innocent 
Israelis. I would echo the sentiments of both Amnesty International and 
Human Rights Watch in emphasizing that terrorist attacks against 
civilians--including settlers--are war crimes and crimes against 
humanity.
    I also recognize that settlements are not the only cause of tension 
between Israelis and Palestinians.
    At the same time, in a process that is supposed to see Israelis and 
Palestinians exchanging land for peace, settlements have a lot to do 
with what Israel is supposed to deliver through negotiations to the 
Palestinians, but has largely not provided.
    Here are the basic facts: according to Israeli government sources, 
there are approximately 230,000 settlers today living in 145 
settlements in the West Bank and Gaza considered official under Israeli 
law and over 120 settlement outposts established since 1996 without 
proper Israeli authorization (although not all of these outposts are 
still in existence since around 20 of them--mostly uninhabited--have 
been dismantled). Roughly 7,000 settlers live in the Gaza Strip in 17 
settlements, with the rest of the settler population living in West 
Bank communities.
    Although settlement construction covers only a tiny fraction of the 
occupied territories, Israel has expropriated approximately 50% of West 
Bank land, which has been taken over as ``state land,'' seized for 
``military purposes,'' declared to be ``abandoned property,'' or 
expropriated for ``public use.'' Further, settlements and the territory 
they control are often placed near Palestinian communities to deny them 
the opportunity to expand or among Palestinian population centers to 
break up their contiguity.
    Contrary to popular belief, settlement expansion actually continued 
during the years of the Oslo peace process, with the settler population 
nearly doubling and thousands more settlement housing units being 
built. This escalation of settlement growth strengthened the popularity 
of Palestinian rejectionists and undermined the standing of moderate 
Palestinian leaders who backed the Oslo Accords.
    President Bush's peace initiative explicitly recognizes settlements 
as an immediate problem and obligates Israel to deal with them.
    Although the ultimate fate of official settlements is left as an 
issue for Israel and the Palestinians to resolve in a final peace 
agreement, the Road Map lays out specific steps that Israel must take 
at the beginning of the process in order to prevent settlements from 
becoming an even worse dilemma.
    These steps should be taken by Israel whether or not this 
particular plan is successful.

                                OUTPOSTS

    In the first phase of the Road Map, Israel is required to 
immediately dismantle settlement outposts erected since March 2001.
    Not after the Palestinians have succeeded in fulfilling all of 
their security obligations, but immediately.
    And not just those outposts that Israel considers unauthorized or 
illegal, but all those built since a specific date, which coincides 
with when Ariel Sharon first became Prime Minister.
    Settlements Watch has been instrumental in raising the profile of 
the settlement outpost issue. We drive throughout the occupied 
territories and use aircraft overflights to document the establishment 
of these outposts and to track their growth.
    We consider outposts to be those settlements built without pre-
authorization from the state, located a significant distance from 
official settlements, and provided with basic infrastructure for 
existing as independent communities.
    These outposts are established for a specific reason: to complete 
the chain of Israeli settlements along the areas that remained under 
complete Israeli control according to the Oslo Accords and to connect 
them with the isolated settlements in the heart of the West Bank in 
order to form more solid blocks of communities. This has been done with 
the awareness, and often the assistance, of the Israeli military and 
numerous Israeli governments.
    The outpost phenomenon is not new. This is the way that various 
settlements were started as early as the late 1960s. However, during 
the years of the Netanyahu government, settlers received support from 
right-wing Israeli politicians to use this method. It was Ariel Sharon, 
then Foreign Minister, who returned from the Wye negotiations in 
October 1998 and called upon the settlers to grab the mountain tops and 
establish new settlements to prevent the land from being turned over to 
the Palestinians. During Netanyahu's term, roughly 50 new settlement 
outposts were established. This process reached a peak during the first 
Sharon government, during which approximately 75 new outposts were 
built (although a few have been dismantled).
    Prime Minister Sharon has occasionally gone through the motions of 
pretending to dismantle outposts, but this is a charade.
    The method for supposedly dismantling an outpost takes a familiar 
pattern: the government selects the right political time to engage in a 
limited battle of wills with a small and isolated outpost. The 
settlers--particularly the rowdy ``hilltop youth''--respond with 
resistance to Israeli soldiers and police, who are often subject to 
violence and other abuse during the process. The cameras film it all, 
and it looks good on TV. But when the reporters go away, the settlers 
put up new outposts either in the same location, some place close by, 
or in a very remote area that is hard for journalists to reach.
    At this point, over 120 settlement outposts have been established 
since 1996, few have been truly evacuated, and the settlers continue to 
push to build new ones and solidify older outposts every day.

                           SETTLEMENT FREEZE

    The second step that Israel is required to take under the first 
phase of the Road Map is to freeze all settlements activity (including 
natural growth of settlements).
    As I mentioned earlier, settlements and the settler population have 
continued to expand over the years of the peace process, thereby 
creating facts on the ground that make negotiating their future more 
difficult. Successive Israeli governments have used the excuse of 
``natural growth'' as a loophole through which more settlement housing 
and bypass roads have been built and more settlers brought to the 
occupied territories.
    But, in fact, there is no such thing as ``natural growth'' when you 
discuss settlements.
    ``Natural growth'' would imply that some version of Adam Smith's 
``Invisible Hand'' is guiding Israelis to the West Bank and Gaza. While 
it is true that some settlers move there for ideological or religious 
reasons, they are a distinct minority. The vast majority of settlers--
77% of them, according to an independent survey commissioned by Peace 
Now--move to the occupied territories for ``quality of life'' reasons. 
Basically, Israeli governments have offered extensive economic 
incentives that make it significantly cheaper for Israelis to live in 
the West Bank and Gaza than inside the Green Line. This allows settlers 
to maintain a better lifestyle than they otherwise could afford.
    A freeze on all settlements activity would require an end to these 
subsidies, but by and large, Israel continues to underwrite inducements 
for settlement growth.
    Peace Now hired an independent Israeli accounting analyst to 
examine government spending on the West Bank and Gaza settlements in 
2001. The analyst, Dror Zaban, was formally with the Budget Department 
of the Israeli Finance Ministry and Assistant to the Director General 
of the Finance Ministry.
    He found that in 2001, using the prevailing exchange rate of 4.1 
shekels to the dollar, Israel spent at least $553.6 million on 
settlements in the West Bank and Gaza, of which at least $440.5 million 
can be considered ``surplus'' spending, that is, expenditures dedicated 
to settlers and settlements that would not have otherwise been spent on 
these individuals and their communities as part of normal budget 
allocations available to Israelis inside the Green Line.
    Mr. Zaban did not examine military spending to protect settlements, 
nor was he able to determine expenditures for some civilian categories, 
such as education.
    While these numbers may not sound impressive to members of the 
Senate who are used to dealing with much larger figures, by way of 
comparison, Israel received $838.2 million as its annual economic grant 
from the U.S. in 2001, meaning that Israel spent the equivalent of over 
half of that amount on settlements that year, excluding security 
expenses.
    The more recent study of Israeli government spending on settlements 
conducted by Ha'aretz, which I mentioned earlier, was even more 
extensive because its reporters were able to determine spending in 
areas that Peace Now was unable to.
    As I said, Ha'aretz found that Israel spends at least $556 million 
extra per year on settlement activity, not including military 
expenditures. This spending translates into annual surplus costs of 
over $2,222 per settler. The main budget items include $156 million in 
transfers to local settlement authorities, an estimated $111 million 
from the Housing Ministry this year, and $89 million for roads. The 
cost of income tax benefits provided to settlers was about $29 million, 
although these benefits were canceled this past summer. Other items 
include surplus millions for electricity, water, industry, education, 
and health care, among other things.
    Far from meeting its obligation to freeze settlement growth, the 
Sharon government has recently launched a huge new housing incentive 
program for the settlements and an expansion of investment in tourism 
in the occupied territories.
    Peace Now believes that our government should freeze settlement 
growth and transfer the full $556 million in surplus spending on 
settlements to the general welfare of Israelis living inside the Green 
Line.

                             SECURITY FENCE

    A great deal of attention has been paid over the past few months on 
the security fence that Israel is building in the West Bank. Although 
the fence is not mentioned in the Road Map, it has nonetheless become a 
bone of contention between the Sharon government and the Bush 
Administration.
    Let me say that there is nothing inherently wrong with Israel's 
erecting a security barrier between us and the West Bank. In fact, the 
whole idea of such a fence, which Peace Now supports, came from the 
Labor Party and other progressive Israeli organizations that pointed 
out in the early days of the Intifada that it is crazy for Israel to 
allow its border along the West Bank to remain wide open to terrorist 
infiltration.
    Too many Israelis have paid a heavy price because nothing stood in 
the way of terrorists slipping into their communities. Israel has a 
right and an obligation to defend its borders, and it is not the first 
country in the world to use a fence as one way to enhance its security. 
While we believe that Israel must hold out a viable option for a 
negotiated peace with the Palestinians, we should not hesitate to 
protect our border until such a peace is possible.
    However, the security barrier that Prime Minister Sharon is 
building in the West Bank strays far from the original plan of erecting 
a fence along the Green Line. Sharon strongly opposed the initial 
concept of the fence because he knows that it has political 
implications. Building it along the Green Line would imply that the 
settlements left on the other side would be likely candidates for 
dismantlement once final borders were established with the 
Palestinians. As a result, the settlers and their supporters began to 
clamor to have as many settlements as possible on the Israeli side of 
the fence, and it is only the prospect of using the fence to reinforce 
Israeli settlements and Israel's hold on about 50% of the West Bank 
that has drawn the Prime Minister's support.
    Therefore, President Bush is right to object to the route of the 
fence that Sharon is proposing. As currently planned, this fence would 
clearly violate another Israeli obligation--not to take actions that 
undermine trust, including confiscation and/or demolition of 
Palestinian homes and property. Routing the fence so that it cuts off 
Palestinians from around half of their territory is certainly a 
confiscation of property, and it precludes a negotiated settlement, 
thereby undermining President Bush's vision of ending the occupation of 
1967. Official Israeli sources say that 85% of the land confiscated for 
the fence in just its first stage of construction was expropriated from 
Palestinians.
    It should be noted that one reason Israelis are enthusiastic about 
a West Bank fence is the success of the barrier that surrounds Gaza, 
through which not a single Palestinian terrorist has penetrated. 
However, the Gaza fence is built along the 1967 border, and this should 
be the precedent for a fence between Israel and the West Bank.
    Further, the proposed fence route will bring tens of thousands of 
Palestinians who live near the settlements inside Israel's line of 
defense, Palestinians who will be angered from being cut off from their 
farm lands, relatives, and social services in the process. Prime 
Minister Sharon rabidly opposes any sort of Palestinian right of return 
(which would add tens of thousands of Palestinians to Israel), yet his 
fence would amount to a de facto annexation of approximately half a 
million Palestinians to our state.
    Pushing the fence deeper into the West Bank also will greatly 
increase the cost to Israel of building the barrier, with the segment 
enclosing the settlement of Ariel adding about $224 million to the 
price, if it is completed.
    Finally, a longer fence will place an additional strain on the 
military, which will need to patrol and defend the barrier.
    Here's what Israeli analyst Amir Rappaport wrote in the newspaper 
Ma'ariv on August 12th about the security problems with the route being 
advocated by the Sharon government:

        ``It would . . . oblige the IDF to allocate substantially 
        larger numbers of troops to defend it for two reasons. Not only 
        is the fence along the Green Line shorter, it is also located 
        in more favorable terrain than the route that runs deep in 
        Samaria, which is hillier terrain and more difficult to secure. 
        Quite a few security officials believe that it would have made 
        far more sense to plan from the outset to have the fence run 
        more or less along the Green Line and to encompass, as needed, 
        settlements in the territories within separate, internal fences 
        (in any event, nearly all the settlements presently are fenced 
        in). There are, therefore, good grounds to the argument that 
        the fence was planned with a view to political interests in an 
        attempt to keep on the Israeli side as much territory as 
        possible, and less with a view to security interests.''

    Peace Now encourages the Senate to support Israel's right to build 
a security fence, while also supporting President Bush's objections to 
the specific route of the fence being proposed in order to accommodate 
settlements. Please use all your influence to ensure that the fence is 
built along the Green Line.

                             PUBLIC OPINION

    Lastly, it is important to point out that the positions that Peace 
Now takes on settlements are much more reflective of public opinion in 
Israel and the American Jewish community than those of the Sharon 
government. In fact, even the majority of the settlers are reasonably 
moderate on some of these issues.
    Let me explain.
    Since the outbreak of the Intifada, Israeli public opinion polls 
have reflected increasing support for evacuation of outposts and other 
settlements, especially in the context of a peace treaty.
    The Steinmetz Institute of Tel Aviv University has conducted a 
monthly survey of Israeli views on the peace process for the past 
decade. According to these polls, 60-70% of Israelis consistently say 
that they would support the withdrawal and dismantlement of part or all 
of the settlements if a peace treaty were signed today. These figures 
have been reflected in other surveys, as well. Further, a recent 
Ha'aretz poll found that 40% of the public is prepared to evacuate at 
least some settlements unilaterally, even without a treaty. That same 
Ha'aretz poll found that 55% of Israelis feel that settlements are more 
of an economic burden than a security asset, while 55% also believe 
that the benefits given to settlers should be abolished or reduced.
    Surveys of American Jewish opinion conducted by Peace Now's U.S. 
sister organization, Americans for Peace Now, have found similar 
attitudes among your constituents. In a poll conducted this past July, 
Americans for Peace Now found that close to 71% of American Jews either 
strongly or somewhat support a settlement expansion freeze, and 58% of 
American Jews either support or somewhat support Israel ending its 
occupation of the West Bank and Gaza. Further, 59% of American Jews 
would support a final status agreement between Israel and Palestinians 
roughly along the lines of where the parties ended our last formal 
negotiations in Taba, a plan that includes evacuating most settlements 
from the West Bank and Gaza.
    I mentioned earlier that most of the settlers moved to the occupied 
territories for non-ideological reasons. This fact is reflected in the 
results of two extensive surveys that Peace Now commissioned an 
independent polling firm to undertake over the past year in which 
questions were put to settlers themselves about the peace process. The 
results may surprise some people because it turns out that the settlers 
are more moderate than many have been lead to believe.
    For example, in our June 2003 survey, we found that 90% of settlers 
would not violate the law in response to a decision to withdraw from 
the territories, only 1-2% of settlers would actually use all means to 
oppose evacuation, and 83% of settlers would agree to leave the West 
Bank and Gaza in exchange for compensation. In fact, 29% of them would 
leave the settlements today if it were possible.
    On political issues, 71% of settlers think that a peace agreement 
should be reached with the Palestinians, 66% of them think unauthorized 
settlement outposts should be removed, and 57% of settlers see the 
sometimes violent ``hilltop youth'' as extremist and dangerous.
    In other words, should the time come when Israel has to make some 
tough decisions on settlements, the vast majority of settlers will not 
necessarily stand in the way.

                               CONCLUSION

    Let me conclude by reemphasizing how much I, as an Israeli, and 
Peace Now, as a Zionist organization, appreciate the support that 
Congress provides Israel year after year. Without your efforts, we 
would be in a much more difficult security and economic situation than 
we are today. Please continue to help us combat terrorism and other 
regional threats.
    I also want to stress that Israel's failure to meet its obligations 
regarding settlements in no way excuses the Palestinian Authority's 
failure to meet its obligations to combat terrorism and undertake 
numerous reform efforts. As the Road Map indicates, both sides are 
supposed to take steps in parallel to make this particular peace plan 
succeed.
    At the same time, I would suggest to you that--whether or not the 
Road Map is implemented--indulging the current Israeli government's 
refusal to deal with settlements and its drive to build a security 
barrier through the West Bank in order to complicate any Israeli 
departure from the occupied territories is not in Israel's best 
interests. And here, too, we need your help.
    Allowing Israel to deepen our occupation of the West Bank and Gaza 
through settlements and the fence is the same as condemning us to 
surrender our future as a Jewish, democratic state.
    The continuation of settlement growth will spell an end to the 
Zionist dream, regardless of whether terrorism is crushed today or not 
for years to come.
    This is the most serious threat that we face today. Please help us 
with your words and deeds to meet this challenge.
    One way that you could help is to consider a proposal made by 
Americans for Peace Now earlier this year about what to do with money 
that may be deducted from the loan guarantees package that Congress has 
generously and wisely provided to Israel, money that is to be deducted 
because of Israeli spending on settlements. Instead of having Israel 
lose these guarantees, Americans for Peace Now has suggested that this 
portion of the guarantees be placed in a set aside account to help fund 
housing construction inside the Green Line for settlers who want to 
return to Israel. No account like this exists today. Helping establish 
one would send a constructive message about settlements and demonstrate 
compassion for settlers who do not have the money to move back home.
    Again, I appreciate the opportunity to testify before this 
distinguished panel, and I will be happy to answer any questions you 
may have about settlements.
    Thank you.

    Senator Chafee. Thank you very much for your testimony.
    We will go to Dr. Boaz Ganor, who has also made the long 
trip from Israel. Welcome, Dr. Ganor.

    STATEMENT OF MR. BOAZ GANOR, PH.D., EXECUTIVE DIRECTOR, 
 INTERNATIONAL POLICY INSTITUTE ON COUNTER-TERRORISM, HERZLIA, 
                             ISRAEL

    Dr. Ganor. Thank you, Senator. I am not going to make any 
political or ideological statements; I came as a 
counterterrorism expert to share with you my views about the 
obstacles facing any peace plan in our region.
    Since October 2000 Israel is facing a war of attrition. 
This war of attrition combines terrorist and guerrilla attacks, 
more than 2000 attacks in 3 years. Over 800 Israelis have died, 
and more than 4,000 were wounded. There have been over 100 
suicide attacks. As a matter of fact, we had more casualties in 
Israel from terrorism in the last 3 years than from the 
establishment of Israel in 1948.
    I choose to share with you this data in my opening 
statement because I do believe that the cessation of terrorism 
is the crucial element of any peace plan in our region. The 
whole rationale of the Oslo process from the Israeli 
perspective was aimed just to achieve one goal: security. This 
is living a reasonable life in our region.
    But the Israeli public feels that we were double-crossed by 
Yasser Arafat. Yasser Arafat used a double policy; while he was 
condemning in English the terrorist attacks he was personally 
preserving the capability to launch terrorist attacks whenever 
convenient and whenever he believes that it serves the national 
interest of the Palestinians.
    In order to understand how this policy works, let me go 
back to the equation of terrorism. Terrorism in my view is a 
combination of two factors: motivation and operational 
capability. Only when a group of people have both motivation to 
attack and operational capability, then a terrorist attack or a 
terrorist campaign occurs.
    From this we can conclude what counterterrorism is all 
about. Counterterrorism aims to either lower the motivation or 
lower down the operational capability; the best thing, of 
course, is to lower both factors at the same time. 
Unfortunately, in many cases the two are mutually 
contradictory. When you deal offensively with the operational 
capability of the terrorist organization, thus lowering it, you 
immediately raise the motivation to retaliate.
    I would like to argue that since 1994, the beginning of the 
Oslo Accords, when Arafat wanted to stop terrorist attacks--and 
there were some times that he wanted to do so--he dealt only 
with the motivation, not with the operational capability of the 
terrorist organizations. I call this the ``threat and 
persuasion policy'' of Yasser Arafat.
    This policy was based on two issues on which Arafat and 
Hamas and Palestinian Islamic Jihad saw eye to eye. The first 
issue is what I call the short-term Palestinian national 
interests. What are these interests? To reduce Israel to the 
1967 borders, creation of a Palestinian state with a capital in 
Jerusalem, and what they call the right of return for the 
Palestinian refugees to live in Israel in the 1967 borders. On 
this short-term Palestinian national interest, Hamas and Arafat 
saw eye to eye.
    The other issue on which Hamas saw eye to eye with Arafat 
was that in any case, the worst case scenario from their point 
of view is the deterioration of the situation in the 
Palestinian arena into a ``fitana''--a civil war. Whatever 
happens, let there not be a civil war.
    Having these goals and these beliefs, Arafat never dealt 
with the operational capability of Hamas or Palestinian Islamic 
Jihad. Occasionally, for a photo opportunity he would attack an 
explosives laboratory or arrested some people in a revolving 
door policy. When he was criticized for doing no more than 
this, he took the position of the underdog, saying: I am 
investing 100 percent of efforts; I cannot guarantee 100 
percent success.'' Well, of course nobody can measure effort 
and therefore there was no accountability for what he was 
doing.
    The American policy in the last 3 years, in my view was 
based on the recommendations of the Mitchell committee. The 
Mitchell committee understood the problem, understood the need 
to change the equation of terrorism, and the double policy of 
Yasser Arafat. Therefore, they suggested progress in the peace 
process in stages, with a prior condition being first of all 
the cessation of terrorism activity and then dismantling Hamas 
and Palestinian Islamic Jihad.
    The Road Map, coming from the initiative of the European 
Quartet, had another view. They thought that the progress 
should be reciprocal steps from both sides with no 
preconditions. The amendments that the Americans insisted be 
put in, which is again the cessation of terrorism and 
dismantling Hamas, complicated things for Arafat.
    But he had a solution--a solution that he used time and 
again in the past. This is the hudna or temporary cease-fire, 
which frees him from the need to deal with operational 
capabilities. Thus he need only deal with the motivation of the 
terrorists for a temporary time.
    Well, the hudna had no chance. It had no chance because 
there were four actors that were engaged in this hudna directly 
or indirectly and all of them had different views and different 
goals in reaching this hudna. Hamas and the Palestinian Islamic 
Jihad wanted the hudna only in order not to be regarded by the 
Palestinian public as the ones who prevent Palestinian national 
interests from being fulfilled. The other thing that Hamas did 
not want to see is a deterioration of the situation into a 
fitana--a civil war.
    The Palestinian Authority defined the hudna as a great 
opportunity again to prevent a fitana, but more than everything 
else to show the rest of the world that they are fulfilling 
their obligation to stop terrorist activity by dismantling the 
terrorist organizations without doing that, of course.
    Israel indirectly and unofficially accepted the hudna, 
because Israel thought that this would give a window of time 
for Abu Mazen, the new Prime Minister, to deal with the 
infrastructure of Hamas.
    The United States indirectly accepted the hudna for the 
same reason that Israel did. But if you ask me, I think that at 
the end of this hudna, the American policy started to shift 
toward the point of view of the Palestinians--that dismantling 
Hamas is very important, but that this can be delayed to a 
later time.
    Well, the hudna did not give us what we expected to achieve 
from it because the terrorist organizations did not fulfill 
their obligations. During the hudna--almost 2 months of 
``temporary cease-fire,'' we had 178 attacks. We had four 
people killed in these attacks and 16 wounded, and this does 
not include the August 19 attack on the bus in Jerusalem that 
killed 20 people and injured 112.
    The Road Map did not have a chance. It did not have a 
chance because the Palestinians did not have any intention of 
fulfilling their obligation to dismantle Hamas. Abu Mazen was 
appointed for his mission for only one reason: To pave the way 
for Yasser Arafat to return to center stage in our region. Abu 
Mazen had no sovereignty of his own--no power of his own. If he 
had any sovereignty or power, it came from the sovereignty and 
power that he gained from his patron, Yasser Arafat.
    Even if he really wanted to dismantle Hamas--and I believe 
that maybe he personally did want this--he would never have 
been allowed to do so by Yasser Arafat. If Arafat were to give 
him the power to do this, he would immediately show the rest of 
the world that he had deceived them for more than a decade in 
saying that he could not do it, whereas Abu Mazen could do it 
in no time.
    What are the conclusions from this? As long as Arafat plays 
a key role in our region, no peace plan is going to be 
fulfilled. There will never evolve a new Palestinian leadership 
as long as Arafat rules, because this new, moderate leadership, 
would face two fronts at the same time: Hamas on one hand and 
Arafat on the other hand. No leadership will be ready and 
willing to fulfill the precondition of dismantling Hamas and 
risking a civil war as long as Arafat is there.
    It seems to me that there are no shortcuts. A society that 
would like to achieve a homeland, to end a revolution, must 
fight extremists. It is what we had to do before the creation 
of Israel. Now it is the Palestinians' obligation to do so. And 
why is it necessary to do so? Because Hamas will never 
recognize the right of Israel to exist; because Hamas will 
never stop fighting Israel; and because Hamas will never 
voluntarily and willingly dismantle itself.
    The Palestinian's have to choose between two choices: hudna 
or fitana. Hudna means to go on dealing with only the 
motivation and deceiving the world. Fitana may bring us a 
chance for another peace plan in our region.
    To summarize, I would say that no peace plan can succeed 
without the cessation of terrorism. This would be impossible 
without dismantling the terrorist organization. This would be 
impossible without a fitana, civil war, and a fitana would be 
impossible as long as Arafat plays a key role in our region.
    Thank you.
    [The prepared statement of Dr. Ganor follows:]

   Prepared Statement of Mr. Boaz Ganor, Ph.D., Executive Director, 
 International Policy Institute for Counter-Terrorism, Herzlia, Israel

    At the end of the Camp David discussions, Yasser Arafat, who was 
offered a Palestinian state alongside--but not instead of--Israel, 
declared the Oslo Peace Process a dead end. Israel soon found itself in 
a position where it faced terror attacks unprecedented in scope and 
character. Within three years, there were thousands of terror and 
guerrilla attacks, more than a hundred suicide attacks and many more 
terror attacks that were foiled. The annual number of casualties caused 
by terror attacks hit the highest point since the establishment of the 
State of Israel in 1948. This terror offensive has forced Israel 
unwillingly to move from ``conflict resolution'' to ``conflict 
management'' using all the counter-terrorism means at its disposal
    Israel has identified the Palestinian Authority and its Chairman, 
Yasser Arafat, as being responsible for this terror activity, by 
instigating, financing, inciting, assisting and even actively 
perpetrating terror attacks (as opposed to terror attacks carried out 
during 1994-2000, when the perpetrators were mainly Hamas and Islamic 
Jihad activists and Arafat was ``only'' accused of turning a blind 
eye). Since September 2000, over 50% of the most serious terror attacks 
have been carried out by members of Arafat's own organization, Fatah).
    Some experts tend to analyze and evaluate the prospects of peace 
initiatives in the middle-east without recognizing terrorism as a 
crucial factor.
    This was also the official policy of late Rabin's government in 
1994-1995 using the slogan--``we will pursue peace as if there is no 
terrorism and fight terrorism as if there is no peace process''. This 
Israeli strategy offered no incentive to the Palestinians to refrain 
from terrorist attacks and the Palestinian Authority to pressure these 
organizations to hold their fire. As a consequence it became evident to 
the Palestinians that terrorist activity does serve their interests or 
at the very least doesn't endanger them. This false conviction that 
``terrorism pays'' stood in full contradiction to any peace initiative 
in the Middle East. Moreover, after three years of an on going war of 
attrition against Israel, the Israeli public, like the American public 
does after 9/11 attacks, believes in zero tolerance attitude towards 
terrorism.
    Anyone who cares for peace in the Middle East has to acknowledge 
the importance of a complete secession of terrorism as a crucial 
prerequisite to any future effort to reach a peaceful solution to the 
Israeli-Palestinian conflict.
    What is the phenomenon of terrorism? Terrorism is a combination of 
two factors--motivation and operational capability--the motivation of a 
terrorist organization to perpetrate attacks, and it's operational 
capability of doing so at a given time. Based on the terrorism equation 
one may conclude the Counter-Terrorism counter equation--either lower 
the motivation to use terrorism as a tool for achieving political goals 
or diminish the terrorists' operational capabilities to do so. (It is 
better of course to try and accomplish both simultaneously but 
unfortunately they are often contradicting as the offensive designated 
to limit operational capabilities usually feed motivation to 
retaliate).
    Since the establishment of the Palestinian Authority in 1994, 
Yasser Arafat has adopted a policy whereby he refrains from disrupting 
the military infrastructure of the Palestinian radical groups--Hamas 
and the Palestinian Islamic Jihad (PIJ) in the areas under his control. 
Thus, he was free to preserve the constant threat of terrorism as a 
bargaining chip to be used against Israel, acting to prevent attacks 
when it served what he saw as the Palestinian national interest. But 
whenever such prevention was necessary it was always accomplished 
through a policy of ``persuasion and threats''--never through direct 
military action.
    Whenever the PA came out to prevent terror attacks against Israel 
it has maneuvered to limit the terrorist organization's motivation to 
do so at a given time frame but systematically refrained from 
dismantling their operational capabilities--preserving them for later 
use when it better suited PA's political agenda.
    What made Arafat's threat and persuasion policy effective was the 
fact that the Palestinian authority and the fundamentalist terror 
organizations--Hamas and PIJ, shared from day one of establishing the 
P.A. what was agreed upon as ``the short term Palestinian national 
interests''. These interests were the removal of Israeli forces from 
the West bank and Gaza strip, the establishment of a Palestinian state 
with Jerusalem as it's capital, and the ostensible ``right of return'' 
of 1948 Palestinian refugees to live in Israel within its 1967 borders.
    Both sides also shared an understanding that ``civil war'' among 
themselves (``Fitana'' in Arabic) is to be avoided at all costs as it 
would only serve Israel's interest.
    When Arafat wanted to temporarily stop terrorist attacks against 
Israel, or ``lower the flames'', he managed to convince the leadership 
of the terror organizations that attacks at that specific point in time 
would be counterproductive and harm the Palestinian national interests. 
He usually added a warning that if these organizations would disregard 
his request, he would be obligated to act thereby risking civil war.
    At such times, Arafat, who controlled the Palestinian media, would 
work to ensure that the popular environment was not conducive to 
terrorist activity. However, during the seven years that the 
Palestinian Authority has existed, Arafat never lifted a finger to 
curtail the ability of the terrorist organizations to carry out 
attacks. He never took real steps to disrupt the militants' command 
centers, shut down their bomb factories, or prosecute the leaders of 
the organizations' military wings. What actions he did take were always 
carried out ``for the cameras,'' and were rescinded or overturned as 
soon as the eyes of the world were elsewhere. Nor did Arafat ever do 
anything about gathering up the thousands of illegal weapons in the 
hands of militants, including those of his own Fatah organization--
contrary to the terms of numerous agreements signed with Israel. Nor 
was anything done to prevent radical organizations from engaging in 
fund-raising or recruitment activities. On the contrary, the terrorist 
organizations have been allowed by Arafat to take root and grow in the 
soil of the Palestinian Authority. The PA turned a blind eye to the 
activity of Hamas, the Islamic Jihad and other groups in the autonomous 
zone, allowing them to act freely, to organize for terror attacks, and 
to possess many and varied weapons.
    Not only has Arafat, and the PA under his control not fought to 
control those who oppose the agreements, but they have actively 
encouraged such militancy. This is clear from the incitement in PA text 
books, in the television commercials (on the official PA channels) 
encouraging Palestinian children to die as martyrs; it is clear in the 
attempts--both open and clandestine--to smuggle into Palestinian 
territories weapons against all their obligations in the treaties with 
Israel. And it is clear from Arafat's undermining of the authority of 
any Palestinian leader who attempts to rein in Hamas and the Islamic 
Jihad, much less Fatah's own Martyrs of al-Aqsa Brigades.
    Whenever Aaraft's policy was criticized he immediately assumed the 
``underdog'' position, claiming he was doing whatever was possible but 
was ``too weak to guarantee success''.
    After every terror attack involving massive Israeli casualties, 
Arafat would reiterate that he was doing everything in his power to 
prevent the attacks, in his words--``100% effort'', but that no one can 
guarantee 100% success in thwarting terrorism.
    He would usually back his statement with a one time exposure of an 
explosive laboratory or a casual arrest of a terrorist, orchestrated to 
get maximum international media coverage and create a PR spin.
    The lack of any qualitative criteria for measuring it's efforts at 
combating terror absolved the Palestinian Authority of all 
responsibility for terrorist attacks, allowing the PA to fall back on 
impotence.
    Eventually, when Israel made it clear that this deceiving policy 
cannot last, a new excuse was invented. According to this new argument, 
Arafat should be held responsible only for terrorist attacks carried 
out from areas under Palestinian control (Area A) and not for those 
launched from areas under Israeli security control (Areas B and C). 
Immediately Arafat issued orders to the Palestinian radical groups not 
to ``embarrass the Palestinian Authority,'' by ensuring that the 
perpetrators of every attack set out on their mission from outside of 
the Autonomy. All of this, of course, completely ignores the fact that 
everything that went into the attack--the planning, the bomb making, 
the intelligence gathering the recruiting and training--all this took 
place inside Palestinian autonomous areas.
    The old underdog position assumed by Arafat time and again is still 
being used by the PA to excuse their permanent unwillingness and 
impotence in dealing with the terrorist infrastructures in Gaza and the 
West Bank. This Palestinian policy was never a matter of weakness on 
the part of the PA--it was not that they feared a confrontation with 
the fundamentalists. Rather, it was part of a calculated policy, 
whereby the threat of violence was held in check, to be used to put 
pressure on Israel at the appropriate time during the negotiations.
    Some experts still mistakably hold that Arafat is not in control of 
the Palestinian masses, and is thus not in a position to stop the 
Intifada. But Arafat was in the past and is still today in full control 
of the main apparatuses that can dismantle terrorism.

                        CONTROL OF INTELLIGENCE

    The first and the most important pillar of counter-terrorism is 
intelligence. The gathering of intelligence plays a key role in the 
ongoing war on terror. Intelligence is meant to provide essential data 
on the terror organization: it's hierarchy, leaders and main activists, 
exposing their infrastructure, locating the terror cells, learning 
about their terror attacks planning etc. The Palestinian intelligence 
agencies had and still have the best intelligence--better then any 
Israeli, American or other intelligence agency--on the ongoing activity 
of the Palestinian terrorist organizations in Gaza, the West Bank and 
abroad. This gives the Palestinian Authority a huge advantage in any 
counter-terrorism activity.
    Before the Oslo agreements, (1994), control of the West Bank and 
Gaza Strip gave the Israeli intelligence agencies uninhibited access to 
the ``street'' and made possible the gathering of vital information for 
the war on terror and the frustration of attacks before the killers 
even ventured from their nest. Needless to say, the withdrawal of the 
IDF from these areas did not encourage the residents to continue 
turning over information to Israeli intelligence authorities. The 
bitter end of those suspected of collaboration with Israel brutally 
illustrated the fate that awaits collaborators--or whoever is suspected 
as such--once the IDF departed and Arafat and his people took over. 
This gap in intelligence was supposed to have been bridged by 
intelligence cooperation with the PA. But even at the pick of 
cooperation between the PA and Israel, the Palestinians were reluctant 
to give Israel any information that was gathered by their own sources 
in order to prevent terror attacks.
    The intelligence cooperation channel was mainly used for passing 
Israeli intelligence data, which naturally is gathered from classified 
sources, to the PA security forces for the purpose of interdicting 
attacks.
    In many cases the Palestinians chose to ignore the information and 
did not use it to prevent terror attacks. In other cases they opted to 
warn the terrorists instead. Sometimes they would put up a show arrest 
apprehending the terrorists and let them go free after a short while 
through the infamous ``revolving door'' policy.
    Whatever the case their only genuine effort was immediately 
directed at exposing and eliminating the Israeli intelligence sources 
who provided the information. In effect, an extremely dangerous paradox 
was formed. Intelligence data from classified sources was passed to the 
PA security forces for the purpose of interdicting attacks. Yet at the 
same time, the PA was doing its best to eliminate Israeli intelligence 
sources defined by them as ``collaborators''. Of course, anyone 
suspected of cooperating with Israel has his fate determined well 
before seeing a judge.

                          CONTROL OF THE MEDIA

    By controlling the media, Arafat controls the standards of 
popularity. From the outset it was the official messages disseminated 
through the radio, television and the official PA preachers, that set 
the standards for popularity in the Palestinian street.
    At the heart of Arafat's dilemma is the need to continue to 
mobilize his society in an atmosphere in which no real achievements can 
be presented. The ultimate victims of Palestinian terrorist attacks 
have been the Palestinians themselves. The Palestinian Authority never 
implemented plans to develop a self-sufficient economy. The income of 
most Palestinians has always been based on the employment of 
Palestinians in Israel. Since the outbreak of hostilities, Israel, 
fearful of terrorist attacks has now virtually closed its borders to 
Palestinian laborers. At the same time, tourism, a mainstay of both the 
Palestinian and the Israeli economies, has dropped to a trickle.
    Thus, Arafat is forced to continue to justify a war that, while 
saving him the need to address domestic concerns, has brought the 
Palestinians nothing but grief.

                     CONTROL OVER TERRORIST GROUPS

    Arafat also has considerable influence, even over the 
``opposition'' Islamist groups. These organizations, while not directly 
controlled by Arafat, were still dependent on his keeping their 
military capabilities intact. Had he chosen to disarm and outlaw the 
PIJ and Hamas, the Islamists would have been largely marginalized.
    Arafat's own terrorist groups compete with the Islamic groups in 
number of attacks against Israeli targets. The Fatah groups enjoy the 
overwhelming support of Arafat's constituency, and he has invested a 
great deal in keeping them armed and active, even when his civilian 
infrastructure languishes for lack of funds.
    Over the past three years, since the outbreak of Palestinian 
hostilities, Arafat consistently preached ``Jihad'' (Holy war) against 
Israel. However, at first it was mostly the Islamist groups, Hamas and 
PIJ that carried out the mass-casualty attacks inside Israel. The 
Fatah-Tanzim, which lacked the resources for carrying out the kind of 
``professional'' bombings typical of Hamas, confined itself to shooting 
attacks on Israelis on the roads in the disputed territories.
    All of this began to change towards the end of 2000, when Arafat 
ordered his security services to release the majority of the imprisoned 
Hamas and Islamic Jihad militants--many of them convicted terrorists 
who had been jailed under the terms of the Oslo agreements with Israel. 
Hamas was invited to join the Palestinian Authority's governing body, 
and while the invitation was not accepted, a new level of cooperation 
between Fatah and Hamas began to take shape. The first joint attacks 
against Israeli civilians were not long in coming.
    To date, the Fatah-Tanzim and the Martyrs of al-Aqsa--yet another 
Fatah offshoot--have taken responsibility for more than 300 terror 
attacks in which Israeli civilians were killed.
    Since September 2000 the Arafat`s Fatah-linked groups have carried 
out more than 1,500 attacks and attempted attacks, including car 
bombings, shootings, kidnappings, and knifings.
    As Arafat could have--and still can--prevent the terror attacks 
against Israel, so he can, put a stop to the current round of violence 
in the Territories. After all, he has at his disposal all the means 
necessary to do so. Among these is the complete control of the 
Palestinian media, which, right up until the time these lines were 
written, continues to broadcast blatant incitement against Israel. And 
then there is the security and intelligence apparatus, deeply rooted in 
Palestinian society, the heads of which miss no opportunity to express 
their loyalty to Arafat, and whose personnel receive their monthly 
salary from Arafat's Palestinian Authority. Add to this a vast law 
enforcement force, numbering in the tens of thousands, and one has 
ample means to control the violence in the Palestinian street.
    The violence and terrorist activity known as the ``al-Aqsa 
Intifada'' was a direct result of Arafat's evaluation that violence and 
terrorism pay--that in the end, ``the Palestinian national interests'' 
will be better served by violence than by negotiations. By instigating 
a war of terrorist attrition as an extension of his overall political 
effort, Arafat meant to force Israel into further concessions--more 
than what was offered to him at Camp-David (The creation of a 
Palestinian state on 95% of the West Bank and Gaza strip including the 
control on the strategic territory of Jordan valley. In exchange for 
the highly Jewish populated territory in the West Bank that Israel 
wanted to keep, Israel was ready to swap Israeli territory bordering 
Gaza Strip. Israel was also willing to divide it's capital--Jerusalem 
to accommodate a parallel capital for the Palestinians).
    To the other parties utter disbelief those far reaching concessions 
of historic magnitude were suddenly deemed insufficient and Arafat, 
apparently sensing blood, have decided to push for more assuming that 
an additional dose of terror and orchestrated violence will do the 
trick.
    He was probably right as the pattern worked time and again. Few 
weeks after Arafat provoked the resumption of violent activity, Israeli 
negotiators (in the Taba Talks) expressed sudden flexibility on the 
Israeli sacred Casus Beli issue of Palestinian claim of return of the 
1948 Palestinian refugees into Israel proper--a horrifying gamble on 
Israel's sheer existence, later rectified by the Israeli electorate 
through a democratic process.
    It's difficult to unlearn the lessons of years all at once, and 
Israel is now paying dearly for past mistakes. The Israeli government 
and most of the Israeli public are not willing nor able to adopt a 
policy of turning a blind eye to the Palestinian terrorist activity by 
promoting peace ``as if there is no terrorism''. This is probably also 
clear to Arafat. Therefore his strategy in promoting the current 
terrorist activity is not anymore to obtain further voluntary 
concessions from Israel, but to try to manipulate the international 
community to force a solution probably assuming that such a compromise, 
will hold more for the Palestinians than what was offered at the 
negotiating table.
    In other words, from Arafat's viewpoint, terrorism and violence 
will once more pay off, regardless of how many Palestinian or Israeli 
lives are lost along the way. In fact, the higher the casualties, the 
greater the urgency of an imposed solution.
    Based on the American administration policy in the Middle East, the 
Mitchell committee understood the need to break the deadly patterns of 
the PA policy, and demanded full cessation of Palestinian terror 
activity, and total dismantling of the terrorist organization 
operational capabilities and infrastructures to be considered an 
overriding pre condition to any further diplomatic and political 
discussions concerning future arrangements and solutions of the 
conflict.
    In contradiction to the Mitchell committee recommendations, The 
Road-Map that was structured by the European ``Quartet'' and inspired 
by a Saudi initiative, was based on a simultaneous, reciprocal steps by 
Israel and the Palestinians, with no preliminary demand from the 
Palestinians to dismantle the terrorist organizations. This was 
Arafat's victory and therefore he embraced the Road-Map plan.
    The amendment that has been later introduced by the American 
administration demanding the cessation of Palestinian terrorist 
activity and dismantling Hamas as preliminary steps, complicated 
Arafat's vision.
    Nevertheless he hoped that the American policy will be changed 
after he will reach a temporary cease-fire (``Hudna'') with the 
Palestinian Islamic-radical terrorist organizations. This was not the 
first time that such Hudna was discussed between Palestinian factions 
in order to promote Palestinian national interests.
    But there was no real expectancy to this Hudna since the four 
players--the PA, Hamas and PIJ, Israel and the USA adopted this Hudna 
directly or indirectly for different reasons and with different 
expectations.
    Hamas understood that the PA and maybe the Palestinian public will 
regard terrorist activity at this specific timing as endangering 
Palestinian national interests and they wanted to prevent deterioration 
to a possible civil war.
    The PA for its part adopted the Hudna in an attempt to diminish the 
motivation of the Islamists to execute terrorist attacks and so to 
avoid failing to meet it's obligations to dismantle the terrorist 
organization. They argue that in any case they do not have sufficient 
military capabilities to dismantle Hamas and PIJ right now so it should 
be postponed for later times. Meanwhile Israel should be forced to 
fulfill its obligations by the Road-Map.
    Israel adopted the Hudna indirectly in order to buy time for Abu-
Mazen's new administration to reorganize and start fulfilling their 
obligation to dismantle the Palestinian terrorist organizations.
    The USA was indirectly accepting the Hudna having the same point of 
view as Israel but as the time passed, some statements of the American 
administration implied that there is a beginning of a shift in the 
American position towards the Palestinians by softening the demand for 
immediate dismantling of the terror organizations.
    As expected the Hudna did not last long. The terrorist 
organizations did not keep their obligation to abstain from terrorist 
attacks. The volume of the attacks did drop at first but there was no 
cessation of terrorism and definitely no pressure on its 
infrastructure.
    A few days after the Hudna agreement was concluded, Israel suffered 
from cold weapon terrorist attacks, then a kidnap of a taxi driver, up 
to suicide attacks that culminated in the horrific suicide attack on a 
Jerusalem bus on August 19th and the killing of more then 20 Israelis 
and wounding 112 others.
    There was no hope for the Road-Map plan or any other peace 
initiative in the Middle East since the PA headed by Arafat did not 
have the slightest intention to fulfill their obligation to dismantle 
the terrorist organizations infrastructures.
    The new Abu-Mazen's government that was created as he pointed out, 
to pave the way for Arafat's return to the international arena, had no 
chance to fulfill it's obligations even if they wanted to. Abu Mazen 
did not have any sovereignty or power of it's own in the Palestinian 
constituency. Any capabilities he had were those relayed to him 
courtesy of Arafat.
    Under such circumstances even if a surrogate nominee for PM will be 
genuinely motivated to dismantle Hamas and PIJ, Arafat would never 
empower him to do so and will withhold the authority and support needed 
for this assignment.
    Arafat cannot afford anyone to dismantle the terrorist 
organizations, as by so doing he would publicly admit a decade long 
deception of the entire international community.
    As long as Arafat is present in the West Bank and Gaza strip, no 
other Palestinian leader will emerge that is capable of simultaneously 
withstanding two fronts--the Islamic radical terrorist organizations 
and Arafat himself.
    Even pragmatic Palestinian leaders who understand that tackling the 
Islamic radical organizations is in their own best interest, would not 
dare to declare Fitna (Civil War) against the terrorist organizations.
    Since Hamas and PIJ will never recognize the right of Israel to 
exist as a Jewish state, will spare no effort to bring about its 
destruction and will never volunteer to dismantle themselves, there is 
no real prospect for a viable peace initiative in the Middle East as 
long as the Palestinians will choose Hudna over Fitna and as long as 
Arafat is in control there.

    Senator Chafee. Thank you, Dr. Ganor, very much, and let me 
thank the entire panel for their insightful testimony.
    I think we will go to about 7 minutes each because I know 
my colleagues also have questions. I will direct my questions 
to the entire panel, so please be considerate so that everybody 
is able to get a shot in within the 7 minutes. It might be a 
difficult question, because I am making the assumptions that 
you know the difference between the legislative branch and the 
executive branch.
    I will start with Ambassador Ross because you probably know 
more about our American system: What can we do in Congress? Do 
you have any advice for us here as Members of Congress as we 
look at the challenges ahead?
    Mr. Ross. I would say that the most important thing is to 
recognize that what Boaz was just saying is absolutely right. 
This is not an ideological argument about violence. The fact of 
the matter is we have history now that shows that terror will 
undo any peace process. As soon as the Israelis would withdraw 
to any extent, if there is terror they are going to go right 
back. So there has to be on the Palestinian side an 
understanding that there is going to be a moment of truth.
    I think from the congressional standpoint it ought to be 
clear that you are prepared to support those on the Palestinian 
Authority or those Palestinian groups that are prepared to 
create grassroots movements, that are prepared to make it clear 
that they will discredit the very idea of terror; you will 
support those Palestinians that are prepared to live in peace 
with Israel.
    In fact, there are some who are for the first time creating 
a kind of grassroots approach. Sari Nusseibeh and Ami Ayalon--
Sari Nusseibeh is the president of al-Quds University, Ami 
Ayalon is the former head of Shin Bet in Israel--they have 
agreed on six principles for what should constitute peace 
between the two sides, representing important concessions that 
each would make.
    I think embracing these kinds of groups, even if not 
embracing the precise outcomes they suggest is important, 
especially because the idea that Palestinians will reject the 
concept of terror has to be supported in Congress, not only in 
terms of your rhetoric, but also the groups you are prepared to 
support.
    I would also say that, if it comes time for supporting the 
costs of the fence, that the fence should reflect certain 
criteria. I do not agree, as I said, that the fence should be 
built along the Green Line except where demographics dictate 
it, and there are places where it does. The fence should be 
built in a way that ensures Israeli security, topography makes 
sense to cut back on infiltration, but it has to take into 
account demographics.
    The point about Israel remaining a Jewish state, a 
democratic state, is right. You cannot build a fence on the 
eastern side of the West Bank. You build it on the western 
side.
    I would view deductions on loan guarantees being related to 
settlements, which is what originally it was designed to do, 
not related to the fence. The fence is about security, but then 
again make clear to the Israelis that building a fence that 
creates an encirclement of Palestinians is not a pathway toward 
Israeli security or creating a possibility for the future.
    Senator Chafee. Thank you, Ambassador.
    Rabbi Melchior, I know you would like to advocate for more 
support for the Alexandria Group, but I will let you speak for 
yourself.
    Rabbi Melchior. That, it speaks for itself. I would like 
really to say that to create the coalition of civilizations has 
to be essential to our purpose, I would say not only for our 
part of the Middle East; I think this is something which is 
true for world peace in general. We have to fight terror, I 
totally agree also with Boaz on that. I said in my opening 
statement, we cannot go ahead, we cannot get anywhere. Every 
time we get one step ahead, we are blown back two steps by a 
new terror act.
    It has to be a demand so clearly on the Palestinian 
Authority. I just want to remind you that actually Abu Mazen 
put forward a 100-day program where he actually said how he 
could dismantle. The Hamas and Jihad are not that big 
organizations when it comes to their terrorist infrastructure 
that it cannot be done if there is the will to do it. It is 
difficult. It is very, very difficult. It is necessary. We did 
it when the state of Israel was created. We had somewhat 
similar problems.
    But at the same time, if we do not build, if we do not 
empower, not only by funds, but empower the coalition of 
civilizations and all the things which have to--you cannot have 
that measure of hatred inside your room every day from 120 
television stations, so much hatred, so much anti-Semitism. It 
cannot come--when we were on our way to Camp David, I remember 
I was sitting with Barak on the plane, it is a long plane trip, 
discussing the prospects. I said: How is Arafat going to go 
back and say that he made eternal peace with the devil, because 
that is how we are described.
    We need to deal in both societies with creating this 
coalition of civilizations so that we do not turn into 
something which can never be solved. I think that is the best 
answer to the terrorists, together with what has to be done. We 
have to understand that the prospect of having a Palestinian 
state as soon as possible is a necessity for Israel.
    Senator Chafee. Thank you, Rabbi.
    Mr. Etkes.
    Mr. Etkes. I think that supporting President Bush's 
initiative based on his June 24 speech, a vision which involved 
two independent viable states living one next to the other, 
accepting the Green Line as the international border between 
them, which happens to be also the demographic line between the 
two groups, this is the main thing which the Senate can 
contribute in helping us to more stability.
    Contribution--or support of this vision as far as I 
understand it contains three main factors: first of all, 
support of President Bush's objection to the route of the 
fence. The fence which is constructed right now around Ariel is 
25, 26 kilometers deep in the West Bank. It will include 
hundreds of thousands of Palestinians within the boundaries of 
the fence.
    Second is, as I suggested before, to support a constructive 
message being sent to the Israeli people: Yes, we are on your 
side, we want to help Israel to go through this very hard time, 
and we are doing it by allocating money to constructive 
objectives.
    I think the third thing which could be done is tightening 
the inspection over two parties' actual deeds on the ground in 
terms of what are the Palestinians doing dealing with the 
infrastructure of terror, the capabilities of terror 
organizations to carry out actions against Israel, and, for the 
other hand, dealing with the Israeli settlements which their 
construction continuously sends a very, very destructive, 
negative message to the Palestinians that Israel is not willing 
by any circumstances to leave the West Bank.
    Senator Chafee. Thank you once again.
    We have got a few seconds left, I believe. Dr. Ganor.
    Dr. Ganor. Thank you. First of all, I think that the 
Congress can support the example that we, and the whole world, 
get from the Americans that there is no appeasement of 
terrorism. That is the first thing to do.
    The second thing, I believe that there is a real need to 
deal with the motivation of the terrorists. As I said, 
counterterrorism must deal with both the motivation and the 
operational capabilities. But dealing with the motivation 
definitely does not mean appeasing the terrorists or giving 
them concessions that they seek. Rather, I am talking about 
humanitarian effort, education, and so on and so forth.
    In that regard, I definitely support Rabbi Melchior's idea 
of bridging gaps between civilizations, between religions. Just 
to give you an impression of how everything comes from the same 
arena of Islamic radicalism. The suicide attacker that 
committed the attack in Tel Aviv about half a year ago had the 
traditional last picture made of himself. Usually the suicide 
attacker takes a last picture before committing an attack. I 
was amazed to see the background that he chose for this 
picture, because in most cases they take Islamic symbols--
Koran, al-Aqsa Mosque, or something like that. He chose the 
view of Mount Hebron. This in my view shows that they come from 
the same state of mind, the state of mind of Islamic 
radicalism.
    I agree with Melchior in saying that this is not a clash of 
civilizations. Thank God, it is not Islam against the rest of 
the world. It is Islamic radicalism against the rest of the 
world, including moderate Islam. And I do believe there is a 
need for Christians, Jews, and moderate Moslems to join hands 
in fighting the phenomenon of Islamic radicalism.
    Senator Chafee. Thank you, sir.
    Senator Boxer.
    Senator Boxer. Thanks. First let me just say, Mr. Chairman, 
I think this panel has been extraordinary. I thank all of you. 
I know it was hard for you to get here. I think this has been 
an extremely intelligent discussion and with various views 
being heard. I think it is healthy, I think it is good.
    I just, as someone who is a total optimist in my life--that 
is why I do what I do--I am getting to a point here where I see 
these vicious circles and I am very worried about it. When I 
heard Dennis Ross put out as one of his ideas a fence, I know 
how hard that is to get to that place. But I have to say as I 
look out at this circumstance, in most tough negotiations you 
have a lot of grey areas. For example, one grey area, which 
settlements should be inside, which settlements could be 
outside, and people could discuss it and have arguments about 
it.
    But I go to where Dr. Ganor comes from, which is I do not 
think you make a move until you solve the terrorism issue. I do 
not see how you can. I mean, I think to myself, what if I went 
home to my constituents--and I just get the chills saying this 
because this particular article has stuck with me and a vision 
of the people involved stuck with me. How could I go home to a 
community--and Jon Corzine had to do this after 9-11. How do I 
go home to a community and face a family who lost their father 
and the daughter? They were sitting at a cafe talking about his 
advice to her before her wedding day. How do I go home and 
explain that I am going to go back to a peace table in a 
situation like that?
    Now, that is an excruciating thing for anyone to do who is 
first and foremost entrusted with the responsibility to make 
life safe for people, so they can go to a supermarket, so they 
can ride on a bus, so they can travel somewhere.
    So I really start where Dr. Ganor starts from, and frankly 
it is not an impossible place to start because it is black and 
white. I do not know anyone, Yasser Arafat included, who ever 
said: Oh, terrorism, that is something we support. At least 
that is what they say. Let us start there. We have got to have 
progress in this, and I think it starts with newspaper reports 
that talk about resistance as opposed to terrorism. Killing 
innocent people is terrorism. That is how I feel. And I think 
we need to use our words and choose our words carefully in all 
of this.
    So I have two questions and I will stop. One is, we get so 
focused on the parties themselves, which we have to do because 
in the end that is where it is at. Nothing President Bush can 
do or President Clinton could do is going to bring the parties 
together. But the Arab countries, what is their story? Why do 
they not understand that their future could be so much brighter 
if this conflict was resolved?
    So I would like to ask whoever would like to answer: How do 
you feel about the fact that we know Syria, from everything we 
can see, is involved in supporting some of these organizations? 
And, as Dennis Ross has written in his article in The National 
Interest, that the Arab countries never even said to Arafat, 
you know, shape up here and help Abu Mazen.
    So that is a piece of the puzzle, those are two pieces of 
the puzzle, that I think are key, Mr. Chairman, the Arab 
countries and what they are and are not doing and this 
terrorism piece.
    So that is one question about the Arab countries and the 
second question is to Dennis. Without doing anything that would 
be inappropriate, because I do not want to say if you were 
there what would you say, because you are not there and you 
have to be careful, what are the options of the Bush 
administration in the way they would respond to the death of 
three Americans riding along that road that you rode on 200 
times, a road that was known for taking the embassy officials? 
And by the way, one injured, so it was three killed and one 
injured. Those are my two questions.
    Dr. Ganor.
    Dr. Ganor. Thank you.
    As I said, I see the problem as Islamic radicalism against 
the rest of the world, including moderate Islam. The problem is 
that the moderate Arab countries, and moderate Muslims, are 
reluctant to acknowledge their responsibility to deal with this 
phenomenon.
    I was in the United States when the horrific attack of 9-11 
occurred. On the same day I was interviewed on public radio and 
I was asked: ``Who do you think is responsible for this 
attack?'' I said: I think it is bin Laden. I said: bin Laden 
represents Islamic radicalism, but definitely not Islam as a 
culture, as a religion. One of the listeners called the studio 
and went on the air to say: ``I am a Muslim, and I am an Arab, 
and I am an American citizen,'' and he praised me for differing 
between Islam and Islamic radicalism. He said: ``If it is true 
and these are Muslims that have done that, I think we should 
capture them, I think we should try them, I think we should 
hang them; I wish I could do it myself.''
    My answer to him was: It is very important for you to say 
this on this horrific day, that the American people will know 
that there are Muslims and Arabs like you; but you know what, 
my friend, it is much more important for you to say it in 
Arabic on Al-Jazeera than in English.
    Senator Boxer. OK, so just cutting through because my time 
is running out and I know Senator Corzine has been waiting, you 
are basically saying that within these Arab countries they have 
to--it is internal politics, they are fearful to speak out or 
they are reluctant to for internal political reasons.
    Does anyone disagree with that assessment?
    Mr. Ross. No, but let me put it in a slightly different 
way. I do agree with that assessment. The fundamental problem 
in terms of the Arab leaders is that they are more fearful of 
condemning Hamas and Islamic Jihad and taking on their own 
radical Islamists because of their own lack of legitimacy than 
they are of the consequences of a deteriorating Israeli-
Palestinian war. When that equation changes, then they will do 
something.
    Senator Boxer. Which leads to the last question: What are 
the options of the Bush administration, given this for the 
first time ever direct attack?
    Mr. Ross. The Bush administration I think basically has two 
options that they can employ at this point. They are both 
related to the diplomatic side. We do not have a military 
option. The Israelis have the military option, we do not there. 
One is to finally go to the Arab leaders and say, enough 
already; you can no longer glorify these attacks and portray 
them as acts of resistance; these are acts of terror, pure and 
simple. And as long as you portray them as resistance, you 
legitimize them. Enough already. 9-11 should have created that 
understanding. In Saudi Arabia, May 12 of this year should have 
created that understanding.
    We should be much more public about this. We should make it 
very clear if our Arab friends want us to help transform the 
situation on the ground between Israelis and Palestinians then 
they have to step up to their responsibility. Absent that, we 
cannot succeed here and we cannot succeed in the war on terror 
either, because as long as these kinds of acts are not 
discredited for what they are you are still going to have many 
people who are prepared to engage in them.
    The other option would be to try to broker something with 
Abu Ala and Sharon. That would be the other thing, but to do it 
more decisively. Right now our posture is, the Bush 
administration's posture, is we are not going to deal with Abu 
Ala until he proves that he can deliver. Now, that is also 
Sharon's position.
    But as I said, if Abu Ala shows that he might be prepared 
to do something, he is also going to want to know what it is he 
is going to get when he does it. So I would say we have to at 
least consider that as a possibility.
    Senator Boxer. Thank you. I think my time has expired.
    Rabbi Melchior. Just three very short comments on this. No. 
1, I totally agree on the issue of defining terror as terror. 
You should just know that in these days there is a gathering of 
all the Islamic states in Malaysia, 57 states, which is not 
doing that, not defining terror as terror; and the opposite is 
true.
    The necessity for pressuring now and using also this 
terrible tragedy for pressuring I think is a one-time--the Bush 
administration has to understand--I do not want to give too 
much advice. I come from another country. They have to either 
decide if they want to be really involved or not, and really 
involved is very, very difficult, but it is necessary. We will 
not get anywhere without it.
    The third comment is just to your first comment, if I can 
say this. The true victory of terrorism is also a continuation 
of what is going on today and the status quo. There are a lot 
of things which--this vacuum here is playing into their hands. 
Therefore, if we do not come up with political solutions--now, 
it may be unilateral because of the mess. I think it was not 
only the fence that Dennis Ross was promoting, but unilateral 
withdrawal as part of the fence. That is a different thing. 
That is a unilateral, very important step that was the same as 
my conclusion if nothing else could be done. Of course, it 
would be much, much better to do it with an understanding or 
even an agreement.
    Senator Chafee. Thank you.
    Senator Corzine.
    Senator Corzine. Thank you.
    Gentlemen, we have 140,000 troops on the ground in Iraq. We 
are about to vote on roughly $90 billion of additional 
involvement. We claim we have some element of international 
support and seem to be building some initiatives on that score 
with regard to the United Nations. In this tragic--and it 
really is, both for the Palestinian people and certainly for 
the Israelis and some small involvement for the U.S. here now 
today. Why is there not more of, not just the Arab nations, 
although certainly an appropriate involvement, why has there 
not been a greater willingness to see the international 
community to take overt and strong actions?
    I think I have spoken with some of you on other points in 
other times about monitors and NATO and other kinds of 
involvement that the international community has been willing 
to marshall to resolve the kind of issues that plague 
continually this arena. Why is that not one of these options, I 
ask Dennis or any of the other panelists, as opposed to fences, 
since this is in some way linked to the war on terrorism, some 
would argue more directly than others?
    I do not understand why we are not able to marshall the 
same international sense of outrage. I certainly believe that 
we need to do that at a moral level. But it may take more than 
morality. I would love to hear your comments on it.
    Senator Chafee. Why do we not start with Mr. Etkes this 
time.
    Mr. Etkes. Thank you, Senator, for your question. I think 
that the key to understand the lack of involvement of other 
international bodies in this conflict is hiding in the same 
place where we have to look to seek for the answer why there is 
not strong opposition within the Palestinian and Israeli 
societies to what is going on, what actually is happening, what 
actually is being led to--despair. This word ``despair,'' this 
feeling, is an epidemic, something which people from abroad 
feel, and it is something which I as an Israeli person who is 
representing here the Israeli society, who cares first of all 
about my own people and my own country, feel very strongly that 
my government should do something against it.
    When I am saying something against it, fighting terrorism 
is undoubtedly No. 1, the No. 1 objective which each one of us 
has to support. But fighting terrorism without offering 
something, without offering a political horizon, another 
option, to the hundreds of thousands, to the millions who 
support, passively or sometimes more actively, terrorism, this 
is where the despair hides.
    This problem we have to try to overcome by offering--I am 
talking right now about my own government first of all--by 
offering another alternative. Offering another alternative is 
first of all accepting the right, that Palestinians have the 
right to establish their own state in the West Bank, and that 
there is no way that we as a Jewish democratic state can go on 
and rule those areas.
    Thank you.
    Rabbi Melchior. Mr. Chairman, I will just say one sentence 
or comment. I think the main problem is that from different 
places in the world they look different ways at the conflict. 
While our war against terror is seen in America as a war 
against terror, in Europe it is seen as a war against the 
Palestinian aspiration to their own freedom and self-
determination and so on. It is a total different war which is 
described in Europe than what is described in the United 
States. That is one of the problems of doing something together 
in this.
    Therefore, I think a hearing like this and going into the 
depths of what the source really is and how at the same time we 
need--it is difficult--first of all to lower our eyes a little 
about what the prospects are of where we can get to, to try to, 
first of all, to manage to defeat the terror, to manage the 
conflict, to put in necessary elements, like we said here, 
maybe unilateral elements, to do that first. If we do not reach 
those conclusions and we come again with these overall 
solutions, then we are not going to get anywhere, we do not get 
to the first station of a Road Map, because the terror 
continues.
    Senator Chafee. Thank you.
    Dr. Ganor. If you ask President Bush, he would say he is 
against terrorism. If you would ask Blair, he is against 
terrorism. Schroder is against terrorism; Chirac is against 
terrorism, you name it. If you ask President Assad, he is 
against terrorism. If you would ask bin Laden, I can guarantee 
that he is against terrorism as well.
    The problem is of course defining terrorism. I will not get 
into this, as I've already written a lot about that. But the 
problem is also where the interest of counterterrorism is in 
the hierarchy of the overall interest of each particular state. 
When the French people say that they are against terrorism, I 
believe them. However, above all, to them it is important to 
guard their economical, political and diplomatic ties with 
states that sponsor terrorism, and so on and so forth.
    The problem is that the rest of the world--not the 
Americans but the rest of the world--do not recognize how 
dangerous international Islamic radical terrorism today is. 
Because what we are facing now is different; we are moving from 
modern terrorism to, God forbid, post-modern terrorism, and I 
refer to bioterrorist attacks, chemical, nuclear, radiological 
terrorism, and so on and so forth. This is just around the 
corner. I cannot say if it will be months or years.
    When it comes, the French, for example, will have to 
understand that they cannot appease the terrorists; they cannot 
cut a deal with the terrorists, because a bioterrorist attack 
in London in no time will come to Paris.
    Senator Chafee. Ambassador Ross.
    Mr. Ross. Let me make a couple of comments. I want to pick 
up one thought on what Boaz said. It goes back to what I was 
saying before. You are not going to win the war on terror 
unless you also are competing in the area of ideas. Our 
military power is essential for confronting those who are going 
to use terror against us. No substitute for that; 
indispensable. But the power of our ideas and the power of our 
example is essential for creating an environment where you 
discredit terror on the one hand and you do not have a ready 
pool of people constantly being recruits to take the place of 
those who you have killed in the war on terror on the other. 
These are two aspects of the same requirement.
    On your specific question, Senator, I think if you look at 
the Europeans--I want to pick up on what Rabbi Melchior was 
saying, but I am going to put it slightly differently. Go back 
to basic assumptions, first principles. We in this country 
understand that the fundamental problem for Israel and the Arab 
world is the acceptance of Israel's right to be there, its 
moral legitimacy. The Europeans tend not to focus on the Arab 
or Palestinian acceptance of Israel. They tend to focus on the 
Palestinians as the victims and as the Israelis who are 
therefore in a position to do something about the victims.
    So we start with very different premises. They are almost 
never concerned about Israeli security. I can tell you from all 
my experience they will say: Yes, yes, we have to deal with 
Israeli security, and then they want to dispense with anything 
that is related to it.
    What we have to do is in a sense, if you want to get to the 
point where you could have monitors, you either have to have an 
agreement between the Israelis and the Palestinians, there was 
such an agreement on having our forces on the ground, or the 
Palestinians have to be prepared to assume a responsibility.
    I come back to this notion: There is a moment of truth that 
the Palestinians are going to have to face. It is inescapable. 
They will not have a state if they allow independent armies to 
exist within that state who can use that territory as a 
platform from which to go and kill Israelis. They have to face 
up to that and realize this is part of their salvation when 
they take it on.
    The Arabs can create a climate that supports them as they 
do it. That is what they have not done. That is one thing we 
could be doing.
    Senator Chafee. Thank you once again, gentlemen. If there 
are no further questions, Senator Corzine or Senator Boxer, I 
would like to thank you once again for traveling long 
distances. If any of you would like to submit full statements 
for the record, you are certainly welcome to do that, and safe 
travels.
    Thank you.
    [Whereupon, at 4:27 p.m., the subcommittee adjourned, to 
reconvene subject to the call of the Chair.]


</pre></body></html>
